Nos. 18-1447 & 19-351
IN THE

Supreme Court of the United States
————
REPUBLIC OF HUNGARY, et al.,
Petitioners,
v.
ROSALIE SIMON, et al.,
Respondents.
————
FEDERAL REPUBLIC OF GERMANY, et al.,
Petitioners,
v.
ALAN PHILIPP, et al.,
Respondents.
————
On Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
————
BRIEF OF AMICI CURIAE
HOLOCAUST SURVIVORS FOUNDATION,
USA, INC., RENEE FIRESTONE,
DAVID MERMELSTEIN, DAVID SCHAECTER,
KLAIRE FIRESTONE, THOMAS WEISS, M.D.,
AND NAOMI VILKO, M.D.
IN SUPPORT OF RESPONDENTS
————
SAMUEL J. DUBBIN
Counsel of Record
DUBBIN & KRAVETZ, LLP
1200 Anastasia Ave., #300
Coral Gables, FL 33134
(305) 815-8060
(305) 357-9004
sdubbin@dubbinkravetz.com
Counsel for Amici Curiae
October 29, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

v

INTEREST OF AMICI CURIAE ........................

1

SUMMARY OF ARGUMENT .............................

2

ARGUMENT ........................................................

5

I. The Circuit Court Correctly Held that
Petitioners’ Confiscation of the Respondents’ Property Violated International
Law Under FSIA Section 1605(a)(3) and
that FSIA Jurisdiction Precludes the
Discretionary Defense of Comity..............

5

II. Prior Court Decisions Departing from
Established Constitutional Principles in
Favor of Standardless “Foreign Policy”
Considerations Allowed Global Insurers
Who Collaborated with the Third Reich
to Retain Billions of Dollars in Insurance
Proceeds They Owe to Holocaust Victims
and Families..............................................

6

A. States Legislate to Protect Survivors
and Heirs and Insurers Respond by
Creating ICHEIC – 1998. ....................

6

B. German Foundation Agreement –
2000. .....................................................

7

C. Garamendi Decision and Executive
Preemption. .........................................

8

D. Justice Ginsburg’s Prescient Dissent.

10

E. Garamendi Dissent’s Deconstruction
of Majority Reasoning. ........................

12

(i)

ii
TABLE OF CONTENTS—Continued
Page
F. The U.S. Government Changed its
“Foreign Policy” in the Middle of the
Litigation, Proving the Dangers of
Deciding Cases Based on Foreign
Policy and Abandoning Traditional
Constitutional Principles ....................

17

G. Expansion of Garamendi Preemption
Based on Additional Misrepresentations of U.S. Foreign Policy .................

20

III. It Would Be Physically Impossible and
Emotionally Traumatic To Require
Hungarian Holocaust Survivors in the
United States To Litigate Their Rights In
Hungary ....................................................

26

A. Naomi Vilko..........................................

27

B. David Mermelstein ..............................

27

C. Renee Firestone ...................................

29

D. Klara Firestore ....................................

30

IV. Survivors’ Ability to Personally Participate in Holocaust Restitution Proceedings is a Valuable Element of the Justice
System. ......................................................

30

CONCLUSION ....................................................

34

iii
TABLE OF CONTENTS—Continued
APPENDIX

Page

APPENDIX A: Statement of David Mermelstein,
United States Senate Judiciary Committee,
Hearing on Holocaust Era Insurance Claims
(September 17, 2019) .......................................

1a

APPENDIX B: Statement of Jack Rubin,
United States House of Representatives,
Committee on Foreign Affairs Joint Subcommittee Hearing, Subcommittee on Europe,
Eurasia, and Emerging Threats, Subcommittee on the Middle East and North Africa
The Struggles of Recovering Assets for
Holocaust Survivors (September 18, 2014) .....

7a

APPENDIX C: Statement of Klara Firestone,
United States House of Representatives
Committee on Foreign Affairs, The Struggles
of Recovering Assets for Holocaust Survivors
(September 18, 2014) .......................................

37a

APPENDIX D: Statement of Renee Firestone,
United States Senate Committee on the
Judiciary, Holocaust Era Claims in the 21st
Century (June 20, 2012) ..................................

56a

APPENDIX E: Statement of David Schaecter,
U.S. House of Representatives, Committee
on Foreign Affairs, Righting the Enduring
Wrongs of the Holocaust: Insurance Accountability and Rail Justice (November 16, 2011) .

75a

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX F: Statement of Herbert Karliner,
U.S. House of Representatives, Committee
on Foreign Affairs, Righting the Enduring
Wrongs of the Holocaust: Insurance Accountability and Rail Justice (November 16, 2011) .

82a

APPENDIX G: Testimony of Alex Moskovic,
House of Representatives, Committee on
Foreign Affairs, Subcommittee on Europe
(October 3, 2007) ..............................................

89a

APPENDIX H: Fairness Hearing Before the
Hon. Patricia A. Seitz, 3., United States
District Judge, in Rosner v. United States,
Case No. 01-1859 in the United States
District Court for the Southern District of
Florida (September 26, 2005) ..........................

94a

APPENDIX I: Statement of Dr. Tom Weiss,
United States House of Representatives,
Committee on Banking and Financial
Services (February 12, 1998) ........................... 110a

v
TABLE OF AUTHORITIES
CASES

Page(s)

American Insurance Association v. Garamendi,
539 U.S. 396 (2003) ..................................passim
Barclay’s Bank PLC v. Franchise Tax Bd.,
512 U.S. 298 (1994) ...................................

23

Buxbaum v. Assicurazioni Generali,
33 N.Y.S.2d 496 (N.Y. Sup. Ct. 1942) ......

19

Dames & Moore v. Regan,
453 U.S. 654 (1981) ................................... 9, 13
Gerling Global Reinsurance Corp. v. Kelso,
No. 00-16163 (9th Cir. 2000) ....................

17

Hamdan v. Rumsfeld,
126 S. Ct. 2749 (2006) ...............................

16

In re Assicurazioni Generali, S.p.A
Insurance Litig.,
228 F.Supp.2d 348 (S.D.N.Y. 2002)..........

21

Medellin v. Texas,
128 S.Ct.1346 (2008) .................................

16

Philipp v. Federal Republic of Germany,
894 F.3d 406 (D.C. Cir. 2018) ................... 5, 17
Rosner v. United States,
231 F.Supp.2d 1202 (S.D.Fla. 2002) .. 30, 31, 32
Simon v. Republic of Hungary,
812 F.3d 127 (D.C. Cir. 2016) ............... 5, 17, 26
United States v. Belmont,
301 U.S. 324 (1937) ............................... 9, 13, 14
United States v. Pink,
315 U.S. 203 (1942) ............................... 9, 13, 14

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Weiss v. Assicurazioni Generali, S.p.A,
592 F.3d 113 (2d Cir. 2010) ......................

26

Zschernig v. Miller,
389 U.S. 429 (1968) ............................... 9, 10, 13
STATUTES
28 U.S.C. §1605(a)(3)....................................

2, 5

INTERNATIONAL INSTRUMENTS
German Foundation Agreement, 39 Int’l
Legal Materials 1298 (2000) ...................... passim
COURT FILINGS
Brief for Amicus Curiae the United States
of America in Support of Affirmance in
Gerling Global Reinsurance Corp. v.
Kelso, Case No. 00-16163..........................

19

Brief for the United States as Amicus
Curiae Supporting Petitioners, American
Insurance Association, et al., v. Harry
Low, Insurance Commissioner, State of
California, Case Nos. 02-722 and 02-733,
2003 WL 721754 .......................................

20

Transcript of Final Approval Hearing,
Rosner v. United States, No. 01-1859-civ
(S.D. Fla. Sept. 26, 2005) .................... 32, 33, 34

vii
TABLE OF AUTHORITIES—Continued
OTHER AUTHORITIES

Page(s)

David Mermelstein and Samuel J. Dubbin,
Responses to Senate Judiciary Questions
(October 17, 2019), available at https://
www.judiciary.senate.gov/imo/media/doc/
Dubbin-Mermelstein%20Responses%20
to%20QFRs.pdf .........................................

7

Gerald Feldman, Allianz and the German
Insurance Business, 1933-1945 ................

7

Holocaust Survivors Foundation USA, Inc.,
www.hsf-usa.org (last visited Oct. 28,
2020) ..........................................................

1

Letter from Naomi Vilko, M.D. to Samuel
J. Dubbin, P.A. (January 24, 2018),
available at http://www.hsf-usa.com/wpcontent/uploads/2018/02/LTR-re-HungaryLitigation-Jan-24-2018.pdf; http://www.
hsf-usa.com/class-action-lawsuit-againsthungary-and-hungarian-railway/ ..............

27

Video, U.S. Senate Judiciary Committee
hearing of September 17, 2019, http://
www.hsf-usa.com/judiciary-committee-he
aring-unpaid-holocaust-insurance-claims/...

7

James Moll, The Last Days, Steven
Spielberg, Shoah Foundation (1998) ........

29

Letter from State Department Legal Adviser
to Department of Justice Appellate Staff
Director, August 19, 2009 .........................

25

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Sidney Zabludoff, “The International
Commission of Holocaust-Era Insurance
Claims: Excellent Concept but Inept Implementation,” Jewish Political Studies
Review (Spring 2005) ................................

12

Statement of Dr. Tom Weiss, U.S. House of
Representatives Committee on Banking
and Financial Services (February 12,
1998) ..........................................................

26

Statement of Klara Firestone, U.S. House
of Representatives Committee on Foreign
Affairs, The Struggles of Recovering Assets
for Holocaust Survivors (Sept. 18, 2014) ....

30

Statement of Samuel J. Dubbin, Counsel,
Holocaust Survivors Foundation USA,
Before the United States Senate Judiciary Committee, Hearing on Holocaust
Era Insurance Claims (September 17,
2019), available at https://www.judiciary.
senate.gov/imo/media/doc/Dubbin%20Te
stimony.pdf................................................

7

Stuart E. Eizenstat, Imperfect Justice
(2003) .........................................................

14

Testimony of David Schaecter, U.S. House
Committee on Foreign Affairs, Righting
the Enduring Wrongs of the Holocaust:
Insurance Accountability and Rail
Justice (Nov. 16, 2011) .............................

5

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Testimony of Sidney J. Zabludoff before the
U.S. House of Representatives Financial
Services Committee (Feb. 7, 2008) ........... 11-12
Testimony of Sidney J. Zabludoff before the
U.S. House of Representatives Foreign
Affairs Committee Subcommittee on
Europe (Oct. 3, 2007) ...............................

12

U.S. Department of State – The JUST Act
Report, March 2020 ..................................

25

U.S. Dept. of Justice, Civil Division,
Memorandum (Sept. 25, 2008) ................. 22, 23
U.S. Dept. of Justice, Office of the Solicitor
General, Memorandum (Sept. 25,
2008) .......................................................... 23, 24

INTEREST OF AMICI CURIAE
The Holocaust Survivors Foundation USA, Inc. (HSF),
is a national coalition of Holocaust survivor groups
and their elected leaders, which formed in 2000
to call attention to the inadequacy of high-profile
“restitution” activities, and the dire circumstances
faced by Holocaust survivors in the United States and
throughout the world, half of whom live in or near
poverty.1
HSF members, including the Amici, participated in
various Holocaust restitution processes and litigation,
either as direct claimants, or as organization leaders
advocating for others who were not as fortunate. They
have testified before the U.S. Congress about restitution issues, the need for open Holocaust records and
archives, and the widespread suffering that tens
of thousands of survivors have endured after the
Holocaust from the unique physical and emotional
harms survivors suffer today, due to the crimes of the
German Nazi regime.2
HSF and several of the Amici here who are
Hungarian survivors and children of Hungarian
survivors filed an amicus curiae brief in the Circuit
Court in Simon to describe the unique problems
litigation of the case in Hungary would impose on
survivors and their families, as well as the value of an
1

No counsel for either party authored this brief in whole or in
part, and no party or counsel for a party made a monetary
contribution intended to fund the preparation or submission of
this brief. No one other than amici curiae made a monetary
contribution to the preparation or submission of this brief.
Counsel for the parties have consented to the filing of amicus
briefs through letters filed with the Clerk of the Court.
2

See generally www.hsf-usa.org.

2
American forum where they could participate and
follow the proceedings. With the Court’s grant of
certiorari, Amici wish to address that issue here, as
well as the Petitioners’ efforts to have non-statutory
free-form “foreign policy” considerations be imposed to
evade U.S. court jurisdiction established by Congress.
SUMMARY OF ARGUMENT
The U.S. Survivors support the Respondents’
position in both Philipp and Simon, and the Court
of Appeal’s decisions below, that Germany’s and
Hungary’s (and their instrumentalities’) theft of the
Respondents’ (and their ancestors’) property as an
integral part of the Holocaust constitute genocide
and a taking of rights in property in violation of
international law under the Foreign Sovereign
Immunities Act (FSIA), 28 U.S.C. §1605(a)(3).
Further, once FSIA jurisdiction is satisfied, the
Petitioners are not entitled to avoid the U.S. courts by
invoking “prudential” doctrines such as comity.
In addition, the Amici include Hungarian survivors
and children of Hungarian survivors. Section III
addresses the unique obstacles they would face if
the District Court’s ruling had stood and required
“prudential exhaustion” in Hungary.
The U.S. Survivor Amici are making this important
effort to support the Respondents in both cases
because, sadly, U.S. courts at all levels have employed
the kinds of standardless, discretionary “doctrines” or
methodologies urged here by Petitioners to deny
Holocaust survivors and heirs of Holocaust victims the
rights, protections, and benefits of existing and wellestablished judicial principles and doctrines. The
results have allowed Holocaust profiteers to escape
accountability and deny survivors the opportunity to

3
seek material and moral restitution available under
the law.
The U.S. Survivor Amici will focus on one area in
which the courts’ deviation from existing concrete
standards in favor of standardless “foreign policy”
considerations allowed corporations that collaborated
with the Nazis and profited from the Holocaust to
retain billions of dollars in unjust enrichment –
insurance. Several of the Amici here, and thousands
of survivors who are (or were) members of HSF
member organizations, attempted to recover unpaid
family insurance policies sold by Allianz, Generali,
AXA, and other global insurers, but were denied the
same rights as every other American to their day in
court to vindicate their claims.
The Court’s decision in American Insurance Association v. Garamendi eschewed traditional rules of
constitutional adjudication and held that Holocaust
survivors and heirs’ insurance rights under state
law were subordinate to the “foreign policy” of the
executive branch. The Court held state disclosure
laws (and by implication survivors’ and heirs’ common
law contract rights) were preempted without any act
of Federal lawmaking such as a treaty, statute, or
preemptive executive agreement.
The dissent, written by Justice Ruth Bader Ginsburg,
and joined by Justices Scalia, Thomas, and Stevens,
made it clear that the Court majority had deviated
from accepted canons of constitutional adjudication
and in the process set the stage for massive unjust
enrichment for the insurers, at the expense of Jewish
Holocaust victims and victims’ families. As Amici
show here, the Garamendi Court’s deviation from
accepted constitutional law analysis handed a multibillion dollar windfall to global insurers who collabo-

4
rated with the Nazis and refused to pay Holocaust
victims their policy benefits after the war.
Amici urge this Court to follow Justice Ginsburg’s
lead and demand that Hungary and Germany (in
these cases), and their instrumentalities, not be
allowed to conjure an “exception” such as the one
Garamendi allowed in order to allow insurers to avoid
being accountable for their financial crimes and other
wrongs.
As David Schaecter, President of HSF, testified
before the U.S. House of Representatives Foreign
Affairs Committee in 2011:
No one can ever repay us for the murder
and destruction of the Holocaust. However,
the Nazis and their collaborators also perpetrated a massive theft of the European
Jewish people’s property and assets. They
even used some of the looted assets forcefully
taken from our people to finance the war
effort, and transport us to the hells of
Auschwitz-Birkenau. Yet, companies that
profited from the Holocaust such as Allianz,
Generali, and the others have never been
held accountable. We have been robbed of our
family histories and legacies, and the world
needs to know these companies are inflated
and tainted by Holocaust profits.
It pains me to say that half of the survivors
in the United States live below or near the
poverty line, and cannot afford the home care,
dental care, medicines, eyeglasses, wheelchairs, and even food they need.
It is an outrage that the insurance companies have failed to pay over $20 billion they

5
owe to Holocaust victims, while so many
survivors are living in misery, dying before
their time.
Testimony of David Schaecter, U.S. House Foreign
Affairs Committee, November 16, 2011, App. 78a.
ARGUMENT
I. The Circuit Court Correctly Held that
Petitioners’ Confiscation of the Respondents’ Property Violated International Law
Under FSIA Section 1605(a)(3) and that
FSIA Jurisdiction Precludes the Discretionary Defense of Comity.
The U.S Survivor Amici agree with the Circuit
Court’s holdings below that the Petitioners’ taking
of Respondents’ property in the perpetration of
the Holocaust constitutes a “taking in violation of
international law” for purposes of 28 U.S.C. §1605(a)(3)
of the Foreign Sovereign Immunities Act (“FSIA”),
and that with the establishment of FSIA jurisdiction,
the Petitioners are not entitled to escape jurisdiction
via the discretionary doctrine of “comity.” The Respondents, and several amici curiae, have provided
the Court with excellent technical analyses supporting
the Circuit Court’s decisions below.3 Amici will focus
on the catastrophic impact that have resulted from
courts’ scrapping traditional legal protections in
favor of shifting and unaccountable “foreign policy”
considerations.

3

Simon v. Republic of Hungary, 812 F.3d 127 (D.C. Cir. 2016);
Philipp v. Federal Republic of Germany, 894 F.3d 406 (D.C. Cir.
2018).

6
II. Prior Court Decisions Departing from
Established Constitutional Principles in
Favor of Standardless “Foreign Policy”
Considerations Allowed Global Insurers
Who Collaborated with the Third Reich to
Retain Billions of Dollars in Insurance
Proceeds They Owe to Holocaust Victims
and Families.
Before World War II, hundreds of thousands of
European Jews purchased life, annuity, dowry, and
education policies from insurers such as Allianz and
Munich Re of Germany, Assicurazioni Generali, S.p.A.
of Italy, AXA of France, and Swiss Re, Swiss Life,
and Basler Leben of Switzerland, to name a some of
the most prominent. After the Holocaust, as survivors
struggled to reconstruct their lives, the insurers
demanded original policy documents and death certificates, and used other shameful tactics to cheat
survivors and heirs.
A. States Legislate to Protect Survivors
and Heirs and Insurers Respond by
Creating ICHEIC – 1998.
In the late 1990s, there was growing public information about corporate complicity and profiteering in
the Holocaust, with insurance policies as a prominent
example. In 1998, New York, Florida, and other states
enacted laws to require the companies operating within their jurisdictions to publish the names of policy
holders and, if settlements were not reached, to allow
beneficiaries and heirs to bring lawsuits (comparable
to typical state insurance consumer laws).
To counter these state laws, in 1998, the insurers
created the International Commission for Holocaust

7
Era Insurance Claims, or “ICHEIC,” promising to address the problem on a “non-binding, non-adversarial”
basis. All parties agreed regulators retained their
right to enforce their state’s laws, and all claimants
retained their rights to go to court if they did
not accept an ICHEIC settlement. Nevertheless, as
Justice Ginsburg detailed in her dissent, ICHEIC was
highly dysfunctional and failed to deliver anything
close to its promises, including desultory production of
policy information after five full years.4
B. German Foundation Agreement – 2000.
Meanwhile, to resolve survivors’ lawsuits for slave
and forced labor exploited by German manufacturers,
the U.S. government and Germany entered into an
executive agreement (“German Foundation Agreement”) in the year 2000. At Germany’s insistence, the
Agreement was expanded to address claims against
German insurers, providing that German insurers
would participate in ICHEIC.5 However, although
Germany asked President Clinton to immunize its
4

There is a substantial body of information about ICHEIC’s
history, and the insurers’ behavior, in the record of the U.S.
Senate Judiciary Committee hearing of September 17, 2019.
http://www.hsf-usa.com/judiciary-committee-hearing-unpaid-holo
caust-insurance-claims/. https://www.judiciary.senate.gov/imo/
media/doc/Dubbin-Mermelstein%20Responses%20to%20QFRs.
pdf; https://www.judiciary.senate.gov/imo/media/doc/Dubbin%20
Testimony.pdf.
5

Allianz, whose Chairman Kurt Schmitt became Hitler’s
second minister of economics, insured the construction of
Auschwitz and other camps and ghettos, at the same time it was
selling life insurance to European Jews. Gerald Feldman, Allianz
and the German Insurance Business, 1933-1945, at 409-415.
By 1933, Allianz barred Jews from its offices. Feldman, at 521
(letter from Gertud Becker).

8
insurers from litigation in return, the U.S. government refused.
Instead the U.S. agreed to file
“statements of interest” in U.S. courts stating that
dismissal of claims against German insurers on other
legal grounds was in U.S. foreign policy interests, but
that the Agreement and ICHEIC themselves did not
call for dismissal of survivors’ claims against any
German insurer.
The limited nature of the U.S. government undertakings in the Agreement was explicitly stated in
Annex B: “The United States will recommend
dismissal on any valid legal ground (which, under the
U.S. system of jurisprudence, will be for the U.S.
courts to determine).” It adds: “The United States does
not suggest that its policy interests concerning the
Foundation in themselves provide an independent
legal basis for dismissal.” [Text of Agreement and
Annex] (Emphasis supplied).
C. Garamendi Decision and Executive
Preemption.
During this time period, the California Insurance
commissioner subpoenaed several insurers’ records
pursuant to California’s disclosure law. The insurers
sued to block the subpoenas, claiming their constitutional rights were being violated. After failing in the
district court and the Ninth Circuit, the insurers
succeeded in this Court. In Garamendi, in a 5-4
decision, the Court held that although the U.S.Germany Agreement did not directly or indirectly
preempt any state law, and even though there is no
Federal treaty or statute preempting state disclosure
laws, the state law was preempted by a “federal
executive policy” favoring “non-adversarial resolution”
of Holocaust victims’ claims in ICHEIC. The source of

9
the Executive “policy” was letters and Congressional
testimony of State Department officials, as well as
the statement of interest provided for in the U.S.Germany executive agreement.
The Court painted with a very broad brush to
burnish the Executive’s authority over foreign policy,
and extolled the “unquestioned superiority” of foreign
policy over state’s power. (“There is, of course, no
question that at some point an exercise of state power
that touches on foreign relations must yield to the
National Government’s policy,” and “[n]or is there any
question that there is executive authority to decide
what that policy should be [a]lthough the source of the
President’s power to act in foreign affairs does not
enjoy an textual detail. . . .) 539 U.S. at 413.
The Court also found that the President’s authority
extended to making executive agreements requiring
no Congressional approval to settle claims of U.S.
nationals against foreign governments, citing United
States v. Pink, 315 U.S. 203, 223 (1942); United States
v. Belmont, 301 U.S. 324, 330-331 (1937), and Dames
& Moore v. Regan, 453 U.S. 654, 679 (1981). The Court
found: “Making executive agreements to settle claims
of American nationals against foreign governments is
a particularly longstanding practice, the first example
being as early as 1799,” and concluded “that the
President’s control of foreign relations includes the
settlement of claims is indisputable.’” 539 U.S. at 415.
The Court then dismissed the major differences
between the cases it believed supported broad executive power, e.g. that prior agreements settled claims
against foreign governments, not companies, and that
the other agreements were expressly preemptive,
while the German Agreement was not. The gap was
filled by Zschernig v. Miller, 389 U.S. 429 (1968),

10
because the “foreign policy those agreements embody”
could preempt state law:
But petitioners and the United States as
amicus curiae both have to acknowledge that
the agreements include no preemption clause,
and so leave their claim of preemption to rest
on asserted interference with the foreign policy
those agreements embody. Reliance is placed
on our decision in Zschernig v. Miller, 389
U.S. 429 (1968).
Id., at 416-417 (Emphasis supplied).
D. Justice Ginsburg’s Prescient Dissent.
Justice Ginsburg’s dissent thoroughly exposed the
majority’s departure from established norms and principles of constitutional adjudication, which require an
act of Federal lawmaking with preemptive effect as a
requirement to preempt state law, beginning with this
concise summary:
Although the federal approach differs from
California’s, no executive agreement or other
formal expression of foreign policy disapproves state disclosure laws like the HVIRA.
Absent a clear statement aimed at disclosure
requirements by the “one voice” to which
courts property defer in matters of foreign
affairs, I would leave intact California’s
enactment.
539 U.S. at 430 (Ginsburg, J., dissenting)(Emphasis
supplied).
Justice Ginsburg’s dissent began by emphasizing
the unprecedented harm inflicted by the insurers
against Jewish policy holders:

11
[T]he Nazi regimentation of inhumanity we
characterize as the Holocaust, marked most
horrifically by genocide and enslavement,
also entailed widespread destruction and
confiscation, and theft of property belonging
to Jews. For insurance policies issued in
Germany and other countries under Nazi
control, historical evidence bears out, the
combined forces of the German Government
and the insurance industry engaged in
larcenous takings of gigantic proportions.
Id.
In that regard, Justice Ginsburg explained that the
ICHEIC was a private commission the insurers
created which had failed survivors in every respect. It
was repeatedly “on the verge of collapse;” represented
barely one-third of the Holocaust era insurance
market; did not expand for many years to include all
German insurers as Germany agreed; it paid “only a
tiny proportion” of the claims received; paid less in
claims ($38.2 million) after five (5) years than it had
spent on expenses ($40 million); and its “non-binding
directive” to publish lists of unpaid Holocaust era
policies “had not yielded significant compliance at the
time this case reached the Court.” 539 U.S. at 432433.
In the end, as in the beginning as Justice Ginsburg
explained, ICHEIC, unhindered by oversight by any
state or federal authority, proved to be a spectacular
success for the insurance companies and a disaster for
survivors and their families. When it closed in 2007,
the total amount paid for the actual settlement of
claims ($250 million) and “humanitarian” payments
($200 million), represented less than three percent
(3%) of the $17 billion in insurance proceeds owed to

12
Jewish families in 2007 values. The number of unpaid
policies for which claimants accepted a settlement, the
result was also less than 3% – ICHEIC – 14,186, out
of the 875,000 policies owned by Jewish families in
Europe in 1938. See Testimony of Sidney J. Zabludoff
before the U.S. House of Representatives Financial
Services Committee, February 7, 2008, and the U.S.
House of Representatives Foreign Affairs Committee
Subcommittee on Europe, October 3, 2007. See also
Sidney Zabludoff, “The International Commission of
Holocaust-Era Insurance Claims: Excellent Concept
but Inept Implementation,” Jewish Political Studies
Review 17:1-2 (Spring 2005).
According to Mr.
Zabludoff, the value of unpaid policies today is $25
billion.
E. Garamendi Dissent’s Deconstruction of
Majority Reasoning.
Justice Ginsburg’s dissent thoroughly addressed the
unprecedented, and harmful, elements in the Court’s
decision. First, all of the agreements analyzed by
the Court had specifically preempted state law or
“suspended” litigation in U.S. courts, id., at 437-438,
whereas the German agreement not only did not
preempt state law, they did not even address the sole
subject of the California law – disclosure of policy
information:
The Court states that if the executive
‘agreements here had expressly preempted
laws like HVIRA, the issue would be
straightforward.’ One can safely demur to
that statement, for, as the Court acknowledges, no executive agreement before us
expressly preempts the HVIRA. Indeed, no

13
agreement so much as mentions the HVIRA’s
sole concern: public disclosure.
Id., at 438 (citations omitted)(Emphasis supplied).
Justice Ginsburg then zeroed in on the heart of
the majority decision – the unprecedented elevation
of “foreign policy objectives” to preempt state law:
“Despite the absence of express preemption, the Court
holds that the HVIRA interferes with foreign policy
objectives implicit in the executive agreements,”
relying on Zschernig:
We have not relied on Zschernig since it
was decided, and I would not resurrect that
decision here. The notion of “dormant foreign
affairs preemption” with which Zschernig is
associated resonates most audibly when a
state action “reflect[s] a state policy critical of
foreign governments and involve[s] ‘sitting in
judgment’ on them.” . . . . The HVIRA entails
no such state action or policy. It takes no
position on any contemporary foreign government and requires no assessment of any existing foreign regime. It is directed solely at
private insurers doing business in California,
and it requires them solely to disclose information in their or their affiliates’ possession
or control. I would not extend Zschernig into
this dissimilar domain.
Id. at 439-440 (citations omitted).
Justice Ginsburg also observed that in implying
that not only disclosure laws but actual claims by
Holocaust survivors and heirs would be eliminated by
the “foreign policy” embodied in the agreements, the
Court was giving the insurance industry more than
they and Germany had bargained for:

14
“Neither would I stretch Belmont, Pink, or
Dames & Moore to support implied preemption by executive agreement. In each of those
cases, the Court gave effect to the express
terms of an executive agreement. . . . Here,
however, none of the executive agreements
extinguish any underlying claim for relief. . . .
Id. at 440-441. She added:
The United States has agreed to file precatory
statements advising courts that dismissing
Holocaust-era claims accords with American
foreign policy, but the German Foundation
Agreement confirms that such statements
have no legally binding effect. It remains
uncertain, therefore, whether even litigation
on Holocaust insurance claims must be
abated in deference to the German Foundation Agreement or the parallel agreements
with Austria and France. Indeed, ambiguity
on the point seems to have been the studied
aim of the American negotiating team. See
Eizenstat, Imperfect Justice, at 272-273
(describing the “double negative” that satisfied German negotiators and preserved the
flexibility sought by Justice Department
litigators).
Id. at 441.
Justice Ginsburg added:
“If it is uncertain whether insurance
litigation may continue given the executive
agreements on which the Court relies, it
should be abundantly clear that those agreements leave the disclosure laws like the
HVIRA untouched. The contrast with the

15
Litvinov Assignment at issue in Belmont
and Pink is marked. That agreement spoke
directly to claim assignment in no uncertain
terms. Belmont and Pink confirmed that
state law could not invalidate the very assignments accomplished by the agreement.”
Id. at 441 (Emphasis in original). She concluded:
Here, the Court invalidates a state disclosure law on grounds of conflict with foreign
policy “embod[ied]” in certain executive
agreements, ante, at 2388, although those
agreements do not refer to state disclosure
laws specifically, or even to information
disclosure generally. It therefore is surely an
exaggeration to assert that the “HVIRA
threatens to frustrate the operation of the
particular mechanism the President has
chosen” to resolve Holocaust-era claims. Ante,
at 2392. If that were so, one might expect to
find some reference to laws like the HVIRA
in the later-in-time executive agreements.
There is none.
Id. at 441.
The dissent also criticized the majority’s reliance on
“policy statements” of lower level Executive officials
such as a letter from a Treasury Department official,
or congressional testimony stating that a company’s
participation in ICHEIC should give them “safe haven
from sanctions, subpoenas, and hearings relative to
the Holocaust period:”
We have never premised foreign affairs preemption on statements of that order . . . We
should not do so here lest we place the
considerable power of the foreign affairs

16
preemption in the hands of individual subCabinet members of the Executive Branch. . .
‘[N]o authoritative text accords such officials
the power to invalidate state law simply by
conveying the Executive’s views on matters of
federal policy. The displacement of state law
by preemption properly requires a considerably more formal and binding federal
instrument.
Id. at 442.6
The dissent also rejected the Court’s judicial activism in granting broad, sweeping power to lower level
executive branch officials to strike down a state law
when neither the President nor Congress had acted
with the clarity or force of Federal law to overrule the
States’ authority:
Sustaining the [California law] would not
compromise the President’s ability to speak
with one voice for the Nation. . . . To the
contrary, by declining to invalidate the
[California law] in this case, we would reserve
foreign affairs preemption for circumstances
where the President, acting under statutory or
constitutional authority, has spoken clearly to
the issue at hand. . . . “[T]he Framers did
not make the judiciary the overseer of our
government.” . . . . And judges should not be
the expositors of the Nation’s foreign policy,
which is the role they play by acting when the
President himself has not taken a clear stand.
6

Subsequent preemption decisions of this Court rejected the
executive branch’s ability to preempt state law without express
constitutional or statutory authorization. Medellin v. Texas, 128
S.Ct. 1346 (2008); Hamdan v. Rumsfeld, 126 S.Ct. 2749 (2006).

17
As I see it, courts step out of their proper role
when they rely on no legislative or even
executive text, but only an inference and
implication, to preempt state laws on foreign
affairs grounds.
Id. at 442-43 (Emphasis supplied).
The concerns raised by Justice Ginsburg’s dissent in
Garamendi sound a clear warning for the Simon and
Philipp cases. Petitioners ask the Court to abandon
the long-established principles of statutory construction applied by the Court of Appeals below, and allow
standardless Executive branch “foreign policy” to
dictate the rights of Holocaust survivors and heirs of
Holocaust victims. In Garamendi, this approach
inflicted significant pain, insult, and financial injury
to Holocaust survivors and their families, and handed
a multi-billion windfall to global insurers who
collaborated with the Nazis and profited from the
Holocaust.
F. The U.S. Government Changed its
“Foreign Policy” in the Middle of
the Litigation, Proving the Dangers
of Deciding Cases Based on Foreign
Policy and Abandoning Traditional
Constitutional Principles.
The dangers of the Court’s approach in Garamendi
were lurking within the case file already, because the
position the Department of Justice presented to the
Court in 2002-2003 was the opposite of the position it
advanced in 2000, leading to the Court’s split decision
in favor of the insurers.
In the year 2000, its brief in the Ninth Circuit in
Gerling v. Kelso, the case that came to this Court as

18
Garamendi, the Clinton Administration, which had
negotiated the German Foundation Agreement, made
it clear that neither the U.S.-German agreement,
nor the policy underlying any agreement, nor any
company’s participation in ICHEIC, independently
justified dismissal of survivors’ claims for payment of
unpaid insurance policies in lawsuits in U.S. courts, or
preempted the California statute. The United States
Government position in 2000 was clear:
– the United States “has not undertaken
a duty to achieve legal peace for German
companies against state litigation and regulatory action.”(p. 8).
– the Foundation Agreement itself does
not preclude individuals from filing suit on
their insurance policies in court . . . .” (p.8).
– the Agreement does not “mandate that
individual policyholders or beneficiaries
bring their claims in ICHEIC.” (p. 8-9).
– the American Insurance Association
(AIA) "is mistaken in asserting that the
Foundation Agreement is in 'direct conflict'
with California law, if by this AIA means to
suggest that the Agreement by its terms
preempts the California statute.” (p.9).
– the District Court “overestimated the
Agreement's ultimate legal effect when it
predicted that the Agreement would make
the Foundation an ‘exclusive remedy’ as a
matter of U.S. law.” (p. 9, note 4).7
7

The term “exclusive remedy” never meant what the US
government argued. According to ICHEIC minutes, ICHEIC was
always intended to be “exclusive” only for claimants who accepted

19
See Brief for Amicus Curiae the United States of
America in Support of Affirmance in Gerling Global
Reinsurance Corp. v. Kelso, Case No. 00-16163, etc. in
the United States Court of Appeals for the Ninth
Circuit, at 7-9. (“DOJ Ninth Circuit Brief”).
However, in 2002-2003, when the case went to the
Supreme Court, the Department of Justice reversed
the Government’s position from two years earlier on
several crucial points:
The State Department has repeatedly stated
that ICHEIC “should be recognized as the
exclusive remedy for all insurance claims that
date to the Nazi era and has “encourage[ed]
all insurance companies that wrote policies
during the Nazi era to join the ICHEIC.
....
The German government agreed to supervise
the activities of the foundation and to assure
that the foundation publicizes its existence. . .
It also agreed that all claims by or on behalf
of Holocaust victims against German insurance companies would be processed by
those companies and the German Insurance
Association based on ICHEIC procedures and
payment for their policy; ICHEIC mere existence never precluded
other remedies for claims. ICHEIC Minutes, March 2-3, 1999.
The government also argued, incorrectly, that these policies
were entirely overseas transactions, ignoring that many policies
expressly called for payment anywhere in the world the insured
made their demand. In Dr. Weiss’s father’s policy, Generali
promised to pay “either at the Generali office in Prague, or the
place the insured requested the proceeds to be sent.” See
Buxbaum v. Assicurazioni Generali, 33 N.Y.S.2d 496, 498 (N.Y.
Sup. Ct. 1942).

20
additional procedures that may be agreed to
among ICHEIC, the foundation, and the
German Insurance Association.
The United States, in turn, agreed to inform
its courts that “it would be in [its] foreign
policy interests *** for the Foundation to be
the exclusive remedy and forum for resolving
[Holocaust era]claims asserted against
German companies.
Brief for the United States as Amicus Curiae Supporting Petitioners, American Insurance Association, et al.,
v. John Garamendi, Case Nos. 02-722 and 02-733 in
the United States Supreme Court, at 3-4; 2003 WL
721754, at *2-3 (Emphasis added).
The 2002-2003 DOJ directly contradicted the 2000
DOJ positions that the Agreement did not “make the
Foundation an “exclusive remedy” as a matter of U.S.
law, and that the insurers were “mistaken” to assert
that the Foundation Agreement was in conflict with
the California law, “if by this AIA means to suggest
that the Agreement by its terms preempts the
California statute.”
Therefore, in addition to the Court’s embrace of an
unprecedented preemption rule based solely in executive “foreign policy,” the “foreign policy” presented to
the Court had inexplicably and without disclosure
changed with the change of administrations. This is
the reason Justice Ginsburg was so right to condemn
the standardless “foreign policy” preemption holding
of the Court in Garamendi. And that is another reason
(of many) this Court should reject the Petitioners’
positions.

21
G. Expansion of Garamendi Preemption
Based on Additional Misrepresentations of U.S. Foreign Policy.
After the German Foundation Agreement was
reached in 2000, the cases against German companies
were dismissed “without prejudice,” meaning the
plaintiffs could go back to court if they were dissatisfied with the way ICHEIC handled the claims. The
class action and individual lawsuits against Generali
and other insurers continued before Judge Michael
Mukasey.
As Justice Ginsburg observed, Judge Mukasey had
previously denied Generali’s motion to dismiss the
lawsuits on the ground that ICHEIC was an unsatisfactory alternative remedy, citing ICHEIC’s multitude
of problems, even calling ICHEIC “the company store”
because it was paid for and controlled by the insurance
companies. In re Assicurazioni Generali, S.p.A Insurance
Litig., 228 F.Supp.2d 348, 357 (S.D.N.Y. 2002). He also
cited the lack of any U.S. “foreign policy” interest involving the Generali due to the absence of any executive
agreement with Italy, Generali’s home country. Id., at
358.
However, after the Garamendi decision in 2003,
Judge Mukasey reversed himself and dismissed the
Generali cases in 2004 solely because Generali participated in ICHEIC, under the same “federal policy”
favoring non-adversarial resolution of survivors’ insurance claims and ICHEIC as the “exclusive forum” as
stated in Garamendi.
In the Generali appeal in the Second Circuit, the
record was clear, and Generali even admitted that
between 1999-2001, the State and Justice Departments had rejected Generali’s request for a statement

22
of interest on the basis that the United States had no
foreign policy interest relating to Generali – due to the
lack of any executive agreement with Italy. After oral
argument, the Court of Appeals, sua sponte, wrote a
letter to Secretary of State Condoleezza Rice asking
for the government’s position – in 2008.
Documents obtained via the Freedom of Information
Act (FOIA) show that the State Department was
determined in 2008 and 2009 to support Generali
despite the lack of any agreement, and despite the
Clinton Administration’s previous position that there
was no foreign policy conflict, and despite misgivings
about the validity of Garamendi in the first place, and
further misgivings about extending Garamendi to the
Generali case where there was not even a relevant
executive agreement, and where the insurers were
asking for preemption of common law contract claims.
The Solicitor General Office’s memorandum of
September 25, 2008, recommended that DOJ tell the
Second Circuit that there is a foreign policy conflict,
but not to address whether that policy actually has the
effect of preempting plaintiffs’ claims. The memo
shows that DOJ at the time understood Justice
Ginsburg’s dissent to be correct, and expressed
concerns about the legal basis to further expand
“executive preemption” based on “foreign policy.”
On the merits, I have some reservations
about the legal theory on which the
district court dismissed the plaintiffs’
common law claims. To begin with, the
district court holds that the Executive
Branch’s foreign policy can preempt
state law claims even when that policy
is not embodied in some formal action
that carries the force of federal law.

23
As a general matter, “Executive Branch
actions” that “express federal policy but
lack the force of law” do not preempt
state law.
Barclay’s Bank PLC v.
Franchise Tax Bd., 512 U.S. 298, 329330 (1994)(dormant Commerce Clause).
While Garamendi may reflect an exception to that general rule, that principle is
still subject to some doubt. Moreover,
Garamendi involved preemption of State
laws that imposed peculiar burdens with
respect to Holocaust claims, and in the
Executive Agreements, the United States
had expressly undertaken to work to
eliminate such state burdens. In contrast, the district court here held
preempted [sic] the claims of individuals
to enforce their common law contract
rights. Yet, the Executive Agreements
expressly stated that the United States’
statements of interest would “not suggest
that its foreign policy interests concerning the Foundation in themselves provide
an independent basis for dismissal” of
individual claims. 39 I.L.M. at 1304.
September 25, 2008 Memorandum of the Solicitor
General’s Office, at 10-11. (Emphasis supplied). https://
www.scribd.com/document/482019799/Justice-Dept-Me
morandum-for-the-Solicitor-General.
Similarly, the Civil Division’s September 25, 2008
Memo, at pages 12-13, states:
Arguing for federal preemption in this
case would require an extension of the
holding in Garamendi to a setting in
which there is no executive agreement

24
to support the assertedly preemptive
foreign policy, but merely public statements of State Department officials.
Furthermore, we would be required to
argue that federal foreign policy preempts not only state laws specifically
targeted at the problem of post-war
reparations for insurance claims – a
context in which the Supreme Court
viewed the state’s interests as minimal,
see 539 U.S. at 425-426 – but also common
law claims seeking to enforce traditional
tort duties. . . .[I]t would nevertheless
mark a further step beyond Garamendi
itself.
....
Even in cases in which the United
States has filed a Statement of Interest
pursuant to a Foundation Agreement,
there is considerable tension between the
position that foreign policy requires
dismissal of an action and the express
recognition in the Foundation Agreement that the agreement does not
itself provide an independent basis for
dismissal. . . .
September 25, 2008 Memorandum of the Civil
Division, at 12-13 (Emphases supplied). https://www
scribd.com/document/482019799/Justice-Dept-Memora
ndum-for-the-Solicitor-General.
Nevertheless, when DOJ responded in October
2008, its brief misrepresented prior U.S. agreements
and policy, stating: “it would be in the foreign policy
interests of the United States that ICHEIC be

25
regarded as the exclusive forum for resolution of
insurance claims against companies like Generali that
participated in the ICHEIC process;” that “it is
contrary to settled United States foreign policy for
plaintiffs’ claims to be adjudicated in the courts of the
United States;” and “[a]ccordingly, it would be in the
foreign policy interests of the United States that such
claims not be pursued through the courts.”8
After the November 2008 election, the Second
Circuit asked the new administration for its position
on whether survivors’ litigation against Generali
conflicted with U.S. foreign policy. Records show the
State Department Legal Adviser understood that the
Court’s decision in the appeal would hinge on what
DOJ said about whether the cases conflicted with U.S.
foreign policy, and warned in a letter to DOJ, that the
2008 DOJ letter brief was too weak in its justification
of the U.S. foreign policy interests to persuade the
Court. He urged DOJ to “more persuasively explain
why the absence of an executive agreement with Italy
does not affect the relative strength of U.S. foreign
policy interests in this case.” casting about for new
reasons DOJ might assert to justify support for
Generali, and even suggesting others that were
fictional. August 19, 2009 letter from State
Department Legal Adviser Harold Hongju Koh to
Robert Kopp, Director Appellate Staff, U.S.
Department of Justice. https://wwwscribd.com/docum
8

Another bogus “foreign policy” argument by DOJ in 2008
was that “Poland is on the verge of approving new compensation legislation.” DOJ 2008 Brief, at 8-9. Twelve years later,
“Poland. . . has not yet enacted comprehensive legislation on
national property restitution or compensation covering Holocaust
confiscations.” U.S. Department of State – The JUST Act Report,
March 2020, at 6.

26
ent/482019799/Justice-Dept-Memorandum-for-the-Sol
icitor-General.
Unfortunately, the Obama Administration repeated
the Bush Administration’s argument, and wrote: “[i]t
has been and continues to be the foreign policy of the
United States that the International Commission on
Holocaust Era Insurance Claims (ICHEIC) should be
regarded as the exclusive forum and remedy for claims
within its purview.” The italics were added in 2009 to
the DOJ language from 2008.
Based on these two DOJ submissions, on January
15, 2010, the Second Circuit Court of Appeals held
that Holocaust survivors and heirs could not take
Generali to court despite documented policies and
clear defaults, solely on the ground that the Department of Justice represented that such lawsuits
conflicted with United States foreign policy. Weiss v.
Assicurazioni Generali, S.p.A, 592 F.3d 113 (2d Cir.
2010).9
III. It Would Be Physically Impossible and
Emotionally Traumatic To Require
Hungarian Holocaust Survivors in the
United States To Litigate Their Rights In
Hungary.
A substantial number of HSF leaders and members
are Hungarian Holocaust survivors and would be
members of the class in the Simon case. They contend
the Circuit Court correctly reversed the district court’s
ruling that would have forced Hungarian Holocaust
9

Amicus Dr. Thomas Weiss was the plaintiff in that case.
His testimony to the House Financial Services Committee in
February 1998 is Appendix 110a. DOJ produced the FOIA
memos two months after the Second Circuit denied rehearing.

27
survivors, now in their late 80s and 90s, to litigate in
Hungary.
A. Naomi Vilko.
Naomi Vilko is a psychiatrist who has worked with
survivors in New York and New Jersey for over 40
years, and she is also the daughter of two Holocaust
survivors. In 2018, she described the experiences of
her father, William Vilko, and her mother, Olga Vilko,
Hungarian Jews, who were subjected to the criminal
behavior of Hungarian government officials and the
Hungarian railroad on their way to AuschwitzBirkenau and several other camps. In 2018, before her
mother passed away at the age of 99, Dr. Vilko opined
that her mother and other survivors from Hungary,
who are also mostly in their 90s, would not be able to
travel to Hungary for a trial, both because of the
physical impossibility, and the emotional toll such a
return to the scene of their torture would entail.10
B. David Mermelstein.
David Mermelstein was born in Kivjazd,
Czechoslovakia in 1928, in the Carpathian Mountain
region that was annexed by Hungary in 1939. After
his town fell under Hungarian control, they took over
half his family’s house and his father’s business.
Hungarian gendarmes came frequently and confiscated valuable personal possessions, such as fine
china, fancy linen table cloths, and chandeliers. In
1944, Mr. Mermelstein’s entire family was forced to
10

Dr. Vilko’s statement is posted on the website of the
Holocaust Survivors Foundation USA:
http://www.hsf-usa.
com/class-action-lawsuit-against-hungary-and-hungarian-railway/;
http://www.hsf-usa.com/wp-content/uploads/2018/02/LTR-re-Hu
ngary-Litigation-Jan-24-2018.pdf.

28
leave their home and were taken to the Beregszász
Ghetto and then to Auschwitz-Birkenau. He survived
grueling work details and starvation there, and was
then taken in an open coal train car in the freezing
winter to Ebnsee and Mathausen. Mr. Mermelstein
miraculously survived, but his mother, father, brothers,
sister, and grandparents were all murdered.
After the war, Mr. Mermelstein returned home to
discover everything gone and no one alive. The local
townspeople and the Soviet government did not
welcome Jewish people. He managed to escape and
spent nearly two “miserable” years in a displaced
persons camp in Germany before being able to
immigrate to the U.S. in 1947.
He married another survivor, Irene Markovic, in
1951, and they moved to Miami that year. Mr.
Mermelstein helped organize a number of local
survivor groups in South Florida, especially because in
the early years, survivors only had each other. Only
fellow survivors understood what they had gone
through. The groups grew in size in the 1980s and
1990s, but are much smaller now because so many
survivors have passed away. Mr. Mermelstein was a
founding member of HSF and serves as its Vice
President. His testimony before the U.S. Senate
Judiciary Committee on September 17, 2019, is found
at App. 1a.
At the age of 91, it would be extremely physically
difficult for Mr. Mermelstein or any survivor to travel
to Hungary. It would also be terrible for himself and
fellow Holocaust survivors to be forced to depend the
country whose citizens willingly collaborated in the
murder of their families, the destruction of their way
of life, and the theft of their valuable personal and
religious property, to be the place where the survivors’

29
lawsuit against Hungary and the Hungarian Railroad
are heard.
C. Renee Firestone.
Renee
Firestone
was
born
in
Uzhorod,
Czechoslovakia, the capital of the region. It was
annexed by Hungary in 1938. In April of 1944, Renee’s
family was forced out of their house by Hungarian
gendarmes working with the Nazi SS. She was
imprisoned in Auschwitz/Birkenau for 13 months.
Her entire family was murdered, except for her father
Morris, who died of tuberculosis shortly after
liberation, and her brother Frank, who had escaped
the Hungarian forced labor camp and became a
partisan (a freedom fighter). After liberation, Renee
returned to her family’s home in Uzhorod and found
that everything was gone – other people were now
living in her family villa, her home – and her father’s
business no longer existed.
After the war, Renee was fortunate to continue her
education in Prague, where she met her husband
Bernard (also a survivor). They moved to Los Angeles
where she became a successful fashion designer. In
the last several decades, Renee has documented her
experiences in Hungary and in the camps in several
books, interviews, and multiple documentary films,
including the movie The Last Days, produced by
Steven Spielberg. Among many organizational affiliations, Renee is a member of the HSF Executive
Committee. Ms. Firestone has also testified in Congress about the unfairness of many of the so-called
post-war “restitution” activities, most of which have
left survivors without material restitution, and without even the dignity of a fair opportunity to make
claims for looted assets such as unpaid insurance
policies. App. 56a.

30
Ms. Firestone has also traveled to Hungary since the
war, where Jewish community leaders felt unsafe
because of its historical and current antisemitism.
She believes litigation in Hungary today would be
“unthinkable.”
D. Klara Firestone.
Klara
Firestone
was
born
in
Prague,
Czechoslovakia, immediately following the end of
World War II, the daughter of Renee Firestone
and Bernard Firestone, who was in Hungarian forced
labor and then Mauthausen. She is the founder and
president of Second Generation of Los Angeles. In
September 2014, Klara Firestone testified before the
U.S. House of Representatives Committee on Foreign
Affairs on the issues of survivors’ needs, the needs of
the second generation, and the unfairness of what has
been known as the restitution process. App. 37a.
According to Ms. Firestone, especially at their
advanced age, it would be re-traumatizing and completely unfair to require Hungarian survivors to press
their claims against Hungary and the railroad in the
courts of Hungary, and would be similarly traumatizing for the second generation to litigate in Hungary on
behalf of their parents or for themselves.
IV. Survivors’ Ability to Personally Participate in Holocaust Restitution Proceedings is a Valuable Element of the Justice
System.
The U.S. Survivor Amici also believe that litigation
of this case in Washington, D.C. would provide the
additional benefit of allowing the survivor community,
whose rights are at stake and whose horrific experiences in the Holocaust are at the heart of the case, to

31
participate, witness the proceedings, and see likely
media reports about the case, at a close distance.
In Rosner v. United States, 231 F.Supp.2d 1202
(S.D.Fla. 2002), Hungarian survivors brought an
action under the Little Tucker Act against the United
States Government for misappropriating the property
that was looted by the Hungarians and the SS from
Hungarian Jews, and placed on the “Hungarian Gold
Train.” When WWII ended, the train was located in
Austria and handed by the Hungarians to the U.S.
Army. Recently declassified records showed the U.S.
Government misappropriated and mishandled much
of the property in violation of U.S. law.
The case settled for $25.5 million in 2005 after
nearly five years of litigation. Over $22 million was
earmarked for emergency medical care and basic
social services for indigent Hungarian survivors in the
U.S., Canada, Hungary, Israel, Australia, South America,
and Europe. In addition, $500,000 was allocated to
collect and archive records about the Holocaust in
Hungary and the Gold Train events, and to ensure the
records would be made publicly available.
Throughout the Rosner case, HSF served as a
national clearinghouse to provide information to
Hungarian survivors throughout the United States
and provide feedback to class counsel. The survivors’
direct participation and attendance at hearings
enabled them to understand the difficultly and
complexity of federal human rights litigation against
a strong adversary like the U.S. government, and
reach closure based on their first-hand observations of
how all of the elements of the system worked together,
or conflicted, but eventually got resolved in a hardfought settlement.

32
Alex Moskovic, a Hungarian survivor, who was an
amicus in the Circuit Court, and a member of the HSF
executive committee, attended numerous hearings
and participated in conferences with the attorneys and
the Justice Department.
At the final approval
hearing, he stated:
I am proud of the effort the survivors have
put into this case, and it has been an honor to
observe this Court preside over what I know
has been a difficult case.
It has been difficult for us too. All this
restitution business has caused survivors a
lot of pain because it required us to relive our
past; something that no one should ever have
to experience.
But we did press several cases because
justice requires accountability to the people
who were harmed and to history. That is why
we support the settlement. We support it
mostly because we believe the results, as it
has been agreed to so far, will be honest to
history and fair to the survivors.
Transcript of Final Approval Hearing, September 26,
2005, at 62; App. 100a. Sadly, Mr. Moskovic passed
away in September 2019.
David Mermelstein, who was a named plaintiff in
Rosner, spoke in favor of the settlement at the final
approval hearing:
Good afternoon, Your Honor. We fought this
case hard on behalf of all the Hungarian survivors
and their families. We fought for honor and
justice. We fought for accountability. We were

33
always informed about what was happening in the
case, and had a lot of input with our lawyers.
Our lawyers were advocates for the living and
for the memory of the dead. We saw the Justice
Department fight hard, but in the end when it
came time to do the right thing they were very
honorable.
Id., at 65-66, App. 103a.
Finally, Hungarian survivor Jack Rubin, who was
also a member of the Holocaust Survivors Foundation
USA executive committee, participated actively from
the outset of the case. At the final approval hearing,
he spoke in favor of the settlement:
I was here in March, Your Honor. As you
remember, I gave a very short bitter speech
as a 15-year-old as I was collecting all the
valuables when I was in the ghetto.
I have attended several of the hearings.
Thank you for letting me speak again this
morning.
This case has been remarkable in several
ways. First, Mr. Rosner and our families had
the opportunity to seek justice against the
United States government in this court of law
under the government’s very own laws, and to
receive a fair hearing in that process.
I have watched Your Honor preside over
these hearings and although we didn’t always
agree with you, we know you have been just
and fair and tried to apply the law the best
way you can.
Second, the survivors have had the opportunity to participate directly in this litigation.

34
We spoke frequently with the lawyers as the
case had its ups and downs. We sat in this
courtroom and witnessed justice at work.
When it came time to negotiate, we had real
input and it was part of the settlement.
Third: After reaching a settlement we had
the chance to speak directly to this Court
about it, what it meant to us. And we had a
chance to shake the hands of the government
lawyers and thank the United States for
recuing civilization in World War II, and
providing many refugees such as ourselves
with a home and a chance for a new life; . . . .
Finally, to thank the government for finally
being accountable for the Gold Train.
Id., at 57-58, App. 96a. Sadly, Mr. Rubin passed away
in July of 2016. A fighter to the end for the rights and
interests of his fellow survivors.
CONCLUSION
For these reasons, Amici respectfully urge this
Court to affirm the decisions below.
Respectfully submitted,
SAMUEL J. DUBBIN
Counsel of Record
DUBBIN & KRAVETZ, LLP
1200 Anastasia Ave., #300
Coral Gables, FL 33134
(305) 815-8060
(305) 357-9004
sdubbin@dubbinkravetz.com
Counsel for Amici Curiae
October 29, 2020

APPENDIX

1a
APPENDIX A
STATEMENT OF DAVID MERMELSTEIN
UNITED STATES SENATE JUDICIARY
COMMITTEE HEARING ON HOLOCAUST ERA
INSURANCE CLAIMS SEPTEMBER 17, 2019
My name is David Mermelstein. I am the President
of the Holocaust Survivors of Miami-Dade, and Vice
President of the Holocaust Survivors Foundation USA.
I was born in Kivjazd Czechoslovakia in 1928. My
father Martin Mermelstein was a self-employed businessman who owned a business selling beer, wine,
liquor, and cigarettes. In 1944, we were all deported
to the Beregsatz Ghetto and then to Auschwitz. My
parents, my four brothers, my sister, and grandparents were all murdered in Auschwitz. I am the only
member of my family to survive.
Unfortunately I do not have the time in this hearing
to talk about everything we went through. Although I
realize the purpose of this hearing is to discuss the
problems of insurance policies that our parents and
grandparents bought but the companies refused to
honor, it is impossible to provide the context of this
particular injustice without describing the terrible,
terrible crimes that were perpetrated against the
Jewish people, including of course my family, in the
Holocaust. What we went through, I could talk about
for hours, which is exactly what I do with school
children and community groups all the time.
How I survived the Nazis, and how I survived the
aftermath of World War II, the Russians, the DP
Camps, and the rest, is described in my deposition in
the Hungarian Gold Train case, which I am attaching
to this statement so that the Senators on this
Committee can understand more about my life, the

2a
Holocaust, and the unprecedented crimes inflicted on
us by the German Nazi regime.
As I explain in that deposition, I was very lucky to
survive the Nazis, lucky to escape the Russians after
the war, and lucky, after two years in a Displaced
Persons (DP) Camp, to be allowed to immigrate in
1948 to the United States. I courted my wife Irene,
another survivor, for a while in New York and after we
got married, we went to Miami for our honeymoon and
decided to stay. So, I was lucky again to build a business and raise a wonderful family in Miami. However,
we can never forget what happened to our families in
the Holocaust and we never will.
Now, let’s talk about the insurance. I remember
there was a plaque on our in house that said there was
insurance, by Generali. My father was a careful businessman, so naturally he would have had insurance to
protect his business and his family. Many survivors
also remember those plaques, or an agent coming
around every two weeks to collect premiums, but most
of us were too young to know the name of the
insurance company. Of course we have no documents
for obvious reasons.
In 1998, we worked closely with our Florida Insurance
Commissioner, Bill Nelson, for a State law to make the
companies publish all the names and allow survivors
to go to court if they wouldn’t settle. That is when the
companies came up with the idea of the ICHEIC
commission – because of pressure from the states.
Still, everyone told us ICHEIC was voluntary and not
binding unless you agreed to a settlement.
So, with all those promises, I applied to ICHEIC.
They said they could not find my father’s name. They
sent a check for $1000 as a “humanitarian payment.”

3a
ICHEIC sent out 34,000 of those $1000 checks.
Survivors deeply resent the idea of a “humanitarian
payment” instead of the funds we know our parents set
aside in case of a disaster. The whole thing was an
insult to survivors, and it still is.
Yet the Courts have said that because of ICHEIC,
and because of Bush and Obama Administration
policies, Holocaust survivors cannot go to an American
court to collect our family policies. This is a disgrace
and only you can help us have our rights and dignity
restored.
Survivors are in shock that the U.S. government
took away our rights to go to American courts to make
our claims. Remember, these are contracts – not charity. How would those State Department and Justice
Department people, and those Judges, feel, if they lost
everything, and then their own government said they
couldn’t even go to court like every other American
citizen to collect on an insurance policy their father
paid for? They wouldn’t stand for it, and we won’t
either.
We all endured the ultimate hell. We lost everything
– our rights, our property, our loved ones. How is it
possible that today in the year 2019 we are second
class citizens and can’t even go to an American court
like everyone else? How would you feel if you lost
everything? How would you feel if your rights were
stripped away? How would you feel if your own
government said you couldn’t even have the same
rights as every other American?
Even worse, the government lied when it went to
court against us. I am the one who asked for the
Justice Department’s records under the Freedom of
Information Act. They admitted the government lied

4a
about what Generali was promised. When a Congressman and our lawyer Sam Dubbin used those memos in
a Congressional hearing, the Justice Department told
me to give the records back. They still wanted to hide
the truth. Needless to say, I refused.
One of my closest friends in Miami is Herbie
Karliner, a survivor of Kristallnacht and the S.S. St.
Louis. After the United States forced that ship with
several hundred German Jews to return to Europe in
1939, Herbie’s mother, father, and sister were sent to
Auschwitz and murdered there. He and his brother
survived in hiding. He has papers proving his father
had a large life insurance policy sold to him by Allianz.
But his claim was denied by ICHEIC and Allianz.
They said Allianz already paid Herbie’s father. Years
later, Herbie got papers from the German Embassy
where Allianz said his father cashed in his policy on
November 9, 1938. That was not possible, because
November 9, 1938 was Kristallnacht, when his
father’s store was burned down, and his father was
taken by truck to Buchenwald. Allianz’s and ICHEIC’s
excuse is an obvious fraud. But Herbie, who is not only
a survivor but a U.S. veteran who served in Korea,
cannot to a U.S. Court to sue Allianz. This is just
wrong.
Sadly, you might hear from some Jewish groups that
they are against Congress passing a law. But they
are NOT, I repeat, NOT, Holocaust survivor groups
and do not represent survivors in any way. Survivors
are appalled at the arrogance of these organizations,
such as the American Jewish Committee, the Claims
Conference, the Anti Defamation League, B’nai B’rith,
and the World Jewish Congress. They have no right to
speak for us, or to act for us, and they never did. They
love to speak “ABOUT US, but it is always WITHOUT

5a
US.” They should mind their own business. Please
read the letters the survivor leaders sent these groups,
which is part of my written submission.
I have more bad news. Half of all Holocaust survivors, including in the United States, live in poverty
and cannot afford the basic necessities of life – food,
rent, utilities, medicines, dental care, hearing aids,
eyeglasses, transportation to the doctor, and long term
care. The State Department, and non-survivor groups,
all try to justify stripping away our rights in order to
convince Germany to provide funds for survivors in
need. This is a false choice, and the policy has been a
complete failure.
First of all, what is the connection between insurance policies owed by private companies and Germany’s
moral obligation to provide for survivors’ care? There
is no connection at all.
Second, we have it in writing from the German
Ambassador that the German government would never
threaten to withhold funds for survivors’ needs because
of a law restoring survivors’ insurance rights. That is
in our papers.
Third, the organizations who are supposed to be
negotiating for these funds have failed to deliver
anything close to full funding for survivors’ needs. This
was proven in two Congressional hearings in 2014,
which were convened at the request of the Holocaust
Survivors Foundation USA. This was also found in
Senate and House Resolutions in 2016 calling on
today’s German Germany to fully fund survivors’
needs. Yet, the insurance companies are sitting on
over $25 billion in profits they pocketed from policies
they sold to our families before the Holocaust.

6a
Survivors believe the companies should pay every
policy traceable to living heirs in today’s dollars, and
should disgorge the rest of their Holocaust profits from
policies owned by victims whose entire families were
destroyed, for the benefit of survivors in need today.
Without action by Congress, the insurance companies will be the heirs of the victims of the Holocaust.
This is unacceptable. There should be no legal peace
for the companies until the Holocaust survivors have
moral peace. We are very far away from that today,
Mr. Chairman.
I am 90 years old, about to turn 91. For the past 30
years, I have visited hundreds of classrooms and
community groups in Florida speaking to students and
adults about my experiences in the Holocaust. I do this
not because I enjoy telling the stories because they are
mostly very sad. I do this because I believe that all
people have an obligation to become educated about
the Holocaust, to remember, and to make a personal
commitment that they will do everything they can to
never let such atrocities happen again – not to the
Jewish people, not to anyone.

7a
APPENDIX B
Statement of Jack Rubin
United States House of Representatives
Committee on Foreign Affairs Joint
Subcommittee Hearing Subcommittee on
Europe, Eurasia, and Emerging Threats
Subcommittee on the Middle East and
North Africa
The Struggles of Recovering Assets for
Holocaust Survivors
September 18, 2014
My name is Jack Rubin. I am a survivor of several
Nazi concentration and death camps, the only member
of my beloved family to survive the Holocaust.
Somehow I survived and was fortunate to make it to
this great country and raise a beautiful family, with
three (3) children and four (4) grandchildren.
I have served on the advisory committee of the
Jewish Family Services in West Palm Beach for many
years, and am also a member of the executive committee of the Holocaust Survivors Foundation USA, which
we formed 14 years ago to fight for the rights of tens
of thousands of survivors still living in the United
States, especially those living in poverty. Our leaders
are elected by survivors from all over the United
States. I am speaking here in my individual capacity.
I begin by thanking the leadership of this Committee
for giving us Holocaust survivors and the family
members of Holocaust survivors the opportunity to
speak here about what we have experienced and continue to experience. We thank Chairman Royce and
Ranking Member Engel, Chairman Rohrabacher and
Ranking Member Keating, and Chairwoman Ros-

8a
Lehtinen and Ranking Member Deutch. We are very
proud of our South Florida representatives working
with the other important leaders of this Congress, and
would like to specially acknowledge the many, many
years of dynamic and critical support that Ileana RosLehtinen and Ted Deutch have given to the Holocaust
survivors in the United States, Europe, Israel, and
everywhere else survivors live.
As you know from our struggles dating back to the
late 1990s, we survivors have tried everything we
know to lift our brothers and sisters out of this
grinding poverty and little has worked.
Instead, we have been blocked everywhere we have
turned, in court cases right up the Supreme Court, in
Congress, and even seeking proper funding directly
from Germany. The small and inconsistent gains in
funding for survivors over the years from Germany,
channeled through the Claims Conference, are
delivered in uneven and we believe inadequate ways,
and we still see the poverty and misery at tragically
high levels still today.
Some 55,000 Holocaust survivors in the United
States today live near or below the official federal
poverty level. This is tragic and unacceptable. We
believe that a serious assessment by this Committee
of the actual cost of needed in-home care and basic
emergency services such as medicines, dental care,
hearing aids, food, rent, utilities, transportation, and
other vital services will show a multi-billion dollar
deficit.
The Holocaust survivors in this country strongly
believe even at this very late date, we must return to
the origins of Chancellor Adenauer’s promise in the
1950’s when he said that modern Germany must take

9a
care of the all of the needs of survivors due to the
savage actions of the predecessor government, the
Nazi German regime, with the death camps, the labor
camps, medical experiments, torture, and other crimes
which have left this tragic legacy till this very hour.
Because of the these horrible deprivations, survivors’
mental and physical health care needs are more
extensive, more complex, and more dire than other
elderly people, and require serious, comprehensive
responses.
Unfortunately, the existing system has fallen
tragically short of what survivors need and deserve.
The current funding and care delivery system is
difficult for survivors to access, and also severely
underfunded.
Holocaust survivors are looking to this Committee
to help secure the funding for the care all survivors
need, primarily from the German government and
businesses such as Allianz and Generali who profited
from the Holocaust. Survivors are not seeking
additional funds from the United States government
or American taxpayers, or from Jewish philanthropy.
The United States did not cause survivors’ extensive
problems we experience today, and neither did the
Jewish community. Looking to these sources is wrong
in principle and wrong because it will never yield the
amount of funds actually needed to provide for the
needs of survivors today.
Here are some examples collected from South
Florida and other communities throughout the U.S.:
-

Emergency funds are capped at $2,500 per year
per survivor. That is a cap, not a guarantee.
Most survivors get less every year because of
limited funds that have to be divided among

10a
many survivors with emergencies. The result is
that many, many survivors’ emergency needs go
unmet.
-

Hearing aids usually cost about $5,000, and are
not covered by Medicare. With the $2,500 cap
and lower actual amounts available, survivors
often cannot get even one hearing aid, much less
two in the same year. How can a hearing impaired
survivor in his or her late 80s be expected to
manage with no or only one hearing aid?

-

Most survivors have extensive dental needs
because during the Holocaust, we had no opportunity to care for our teeth, suffered extreme
malnutrition, as well as beatings and other
horrible deprivations. Unfortunately, dental
services are paid for from the same emergency
funds that are limited to $2,500 per year. And
the dental work that many survivors need costs
thousands and thousands of dollars. Some
dentists give pro Bono help in some cities, but
this is very limited. I see and hear story after
story where survivors cannot get the gum
surgery, or extensive dental work they need
because there is no money. This is a very, very
big problem. The lack of proper dental care
harms survivors’ dignity, and also puts them at
risk for bad nutrition and cardiac problems.

-

Many poor survivors don’t have a car, cannot
access public transportation, or cannot drive
themselves to medical appointments. The lack
of transportation to go to the doctor is a real
problem and there is not enough money for this.
Survivors often miss their doctor appointments
for lack of transportation.

-

11a
The cap on home care funds has been reduced
in some areas by 50%. In some cases survivors
with documented need of 24 hour care had
funding cut from $2,500 to $1,250 per month.

-

There is the elderly survivor, Mrs. K, who is
very sick and is in the hospital for blood
transfusions, but was refused when she asked
for her AARP insurance paid which she couldn’t
afford – all of $625 for a quarter

-

Or, Mrs. I, who needed a refrigerator and after
a six week wait, her application was denied.
This was in September and she still does not
have a working refrigerator for her food and
medicine.

-

There was the elderly survivor woman who,
during one of the hottest days of this past
summer, requested money for an air conditioner
that cost $500. She was told they only had
enough money to give her half of the cost.
Unfortunately she didn’t have the rest and had
to endure the unbearable summer heat without
air conditioning.

-

There is the survivor who was desperate for
assistance to pay for a stair lift since her
husband is home bound and was told they were
too rich for assistance, even though their mortgage payments use up most of their income.

-

Survivors are begging for home care and being
refused. In one community I was told the maximum is 15 hours per week, despite the severity
of the survivors’ illness. These are people who
are not eligible for Medicaid. If they go to an
assisted living facility, they use every penny
available to pay their overhead, but you have to

12a
know that aids in those facilities cost extra. The
Claims Conference programs refuse any assistance to survivors for these so-called “extra”
services in assisted living facilities or nursing
homes.
-

These many problems are illustrated by the
case of a survivor from Stovnietze, Poland,
who spent World War II in the Lodz and Kielce
ghettos, and Auschwitz. He survived because
he was a mechanic and also learned to be a
bricklayer. He suffered so many injuries in the
camps including terrible foot injuries from
standing barefoot in the snow. Everyone but his
sister perished in the camps. This survivor
eventually settled in Richmond, Virginia. He
worked all his life and had saved some money,
but never married and had no children. But like
many survivors, he was a hoarder. As he aged it
got so bad he was pinned down in his home.
When neighbors didn’t see his car move for
three days, they called the police, who had to
hoist this elderly survivor out the upstairs
window. He was sent to the hospital close to
death. Showing signs of recovery, he got better
in a nursing home until his medical coverage
came to an end. He couldn’t move home because
it was unlivable, so he went to assisted living,
at $5,000 a month, which increased to $6,000 as
he faltered. Soon he needed aides in the facility,
which cost an additional $6,000 per month –
with no assistance from the Claims Conference
or other programs. These costs were far beyond
his reach financially. He had to be moved to
another facility that was less expensive, where
he eventually died in March 2013. However,
without the help of a group of two very dedicated

13a
friends and his former employer in the small
Richmond community he would never have
received the attention or care he needed.
-

Widows and widowers who live alone cannot get
home care from Medicare if they don’t spend a
certain number of nights in the hospital, and
after many operations are told they should have
help at home even if there were only in the
hospital overnight. Yet the rationing of home
care funds puts these survivors in danger.

-

Some survivors are now applying for assistance
for the first time. This is because they are
desperate for help, but their needs were not
factored into the agency’s budget and they have
to wait for help which may never come. Others
do not even apply because they are aware of the
funding shortages.

-

Survivors are re-traumatized every time they
have to retell their wartime experiences and for
many, the application process for assistance is
emotionally brutal.

-

Though there are fewer survivors every year,
the agencies caseloads are increasing because
more are becoming poor, they are getting more
frail, and their needs are increasing due to
declining health.

-

It is unconscionable that survivors, who went
hungry for years during the Holocaust, should
go hungry in the United States, but they are.

-

If a survivor moves to an assisted living facility
or a nursing facility, the Claims Conference
programs provide no assistance if they need
help with a personal aide or with personal

14a
hygiene. If a survivor lives independently, he or
she can get meals delivered or other services,
but these stop if they move to a facility. In these
facilities, a resident must pay extra for assistance with meds or to take a bath, but none of
that is covered by the Claims Conference.
-

Social workers and survivors involved in the
advisory committees have heard this question
far too often: “Do I take my medication or do I
buy food?” There are limited funds that must
cover a broad range of needs. “Should the agency
take care of every need of a few survivors, or
take care of some needs of many survivors?”
Under the current framework, these questions
are inevitable. Rationing is inevitable. Why
does it have to be this way?

-

There are children of survivors who are putting
themselves in financial jeopardy to help care
for their parents. We are grateful that the
Committee recognized this problem and invited
Ms. Bar-Cohen to relate her personal experience in caring for her father. These difficulties
are widespread.

Doing the Math to Properly Analyze Recent
German Home Care Announcement
Madame Chairwoman, and Mr. Ranking Member,
you are well aware from our many years of work that
in-home care is vital for survivors as they cannot be
institutionalized easily whether it be a nursing home
or mental health facility, which conjures up for most
survivors the most bitter memories of the way the
Nazis treated us. There could be nothing worse than
having to be institutionalized after all we experienced.

15a
You have heard our pleas for over a decade, seeking
a dedicated, permanent source of funding for longgerm care whose access survivors could control themselves. As you are well aware, these plans have been
repeatedly blocked by the institutions that preferred
the status quo. Think of the thousands who have
suffered since then who could have been helped if the
past efforts you supported had not been derailed! I
raise this not to assess blame, but to remind you and
the Committee that survivors need and deserve
comprehensive, accurate, and survivor-centered
solutions – TODAY.
Now everyone is talking about home care, with
grand announcements that Germany would spend
$800 million over the next four years (2014-2017) for
survivors’ home care through the Claims Conference.
We are asking the Committee to please take a very
close look at this announcement and use a sharp pencil
and paper to really understand what it will mean to
survivors for tangible help they desperately need.
According to the announcements 56,000 survivors
per year are served via the Claims Conference with
these German funds. This 56,000 number does not
include untold numbers of other survivors who are not
currently served, because we know most agencies do
not conduct or cannot afford outreach because funds
for services are already limited. Yet these Holocaust
survivors are also entitled to help and they must be an
integral part of this calculation, too.
But if the Committee and the Congress do the
simple math, it will show how terribly inadequate
these supposedly large dollar figures are when it
comes to the reality of what the survivors really need.

16a
$200 million per year divided by the 56,000
survivors that the Claims Conference and Germany
say are now being served, amounts to about $3,560 for
each Holocaust survivor each year.
The average survivor in his or her 80s needs at least
15 hours per week of home care. At $15 per hour,
which would be the low end in Chicago and South
Florida, $3,560 only provides 16 weeks a year of home
care. What is a survivor supposed to do the other 36
weeks?
If a survivor needs 24 hour a day care, the new
German fund would provide only 9 days of care every
year.
In New York City, where home care costs at least
$20 per hour, the funds would provide even less home
care for Holocaust survivors.
This is obviously not sufficient. Survivors cannot
make it on partial solutions, press releases, and
political rhetoric.
A recent report of the New York City social services
organization Self Help shows how inadequate the
recently announced funding levels really are. It says
that in 2013, in the New York City metropolitan area
alone, 26,572 survivors, or 41% of the New York
survivor population, required some help with daily
tasks. When that number is compared with the 56,000
survivors worldwide that are currently “served” via
home care funds through the Claims Conference,
the deficiencies are obvious. New York accounts for
roughly half of the U.S. survivor population, which is
between 20 and 25% of the world survivor population.
If New York’s survivor population, with about 12% of
the world’s total, has enough survivors needing home
care to comprise (for analytical purposes) 47% of the

17a
total number of survivors getting help with home care
through the Claims Conference today, the “math”
shows there are huge amounts of unmet needs now,
and will be gaping needs in the years to come.
When viewed in historical context, the recent German
home care announcement is even more chilling. This
grand new announcement might meet 25% of survivors’ current home care needs. However, it is the
culmination of several years of increases since 2005
in which the totals have doubled with each new
announcement, usually every two years. Since the
latest, high-water mark will only meet 25% of U.S.
survivors’ home care needs, it shows how much unnecessary suffering survivors had to endure in recent
years as funding has been inching up gradually
through negotiations with Germany without regard
for the actual human needs being neglected.
Another question this Committee should ask is:
What are the Claims Conference’s plans for the new
German home care funds? Have the allocations for
each city in the United States been determined? We
think that the United States House of Representatives
and the Senate, and certainly the Holocaust survivors
and our families, are entitled to know exactly how the
new German home care funds will be allocated –
where, when, and how much? The same is true for all
other funds for all the other needs survivors continue
to need so badly.
Doing this math, taking the local pay scales of any
local venue, X$/hour for home health care workers X
number of days a month which are clinically determined to be needed, gives you a number which makes
a mockery of the actions and proposals currently on
the table. The unique health and emotional conditions
and illnesses of survivors require professional treatments.

18a
We think a serious, intensive, and critical inquiry will
show the actual need is several billion dollars for home
care alone, when you consider the aggregate, world
wide need, and the remaining years this care will be
needed, and a like amount for emergency services also.
Where will the funding come from for these desperately needed professional services when Germany’s
recent, highly publicized increases still yield only 25%
of the funds needed into the foreseeable future?
Survivors need mental health care in much larger
proportion than do any other population directly
because of what was done to them – to us – under
the Nazi German regime for years. Many competent
health care professionals prescribe measures to help
and there is little money to help leaving survivors
alone to contend with the sleeplessness, nightmares
and horrors being relived over and over. Only recently,
the Claims Conference announced the results of recent
negotiations with the German Government resulting
in a one time payment for Child Survivors for the
first time amounting to $3,280 total. Once again,
the negotiations and public relations surrounding
the announcement leave the impression of a very
important result but in fact the math shows a huge
false impression. What are survivors and their families
to do to get help once again with such negotiations
results with Germany not paying the actual funding to
care for their horrid needs directly resulting from what
the Nazi Germans did to them?
I very much doubt that Chancellor Adenauer, who
promised in the 1950s that Germany would provide for
the victims of the Holocaust “to their last breath,”
would be satisfied by the state of affairs today.
Survivors need and deserve a realistic German
rational funding that will address all important unmet

19a
needs, ideally worldwide. It should no longer be
acceptable to cause continuing misery to survivors
based on piecemeal negotiations every few years and a
patchwork of programs.
I would add here that the problems of survivors
living in poverty and suffering without the care they
need is a worldwide problem — including in Israel
where over 40% of the world’s Holocaust survivors
live. The issue is of such concern in Israel that, even
as the people of Israel braced for war with Hamas this
past July, the Jerusalem Post published a statement I
wrote addressing the depth of the problems facing
Holocaust survivors in the U.S., Israel, and worldwide.
In that article, I wrote:
Survivors and second and third generation
leaders have long opposed the current cynical
framework pitting the heirs of East German
properties against indigent survivors. This
shell game, enabled by the silence bought by
Claims Conference grants, has allowed the
Claims Conference to protect Germany while
maintaining monopoly control over Holocaustrelated assets and survivors’ welfare. But the
fact is, Germany caused the massive medical
and emotional problems survivors are confronting today, and Germany should pay for
all of the survivors’ needs, without the bargaining and compromising that has become
the Claims Conference’s specialty. Survivors
and heirs should have the right to recover
their lost assets, including German properties, insurance claims, and artworks, and
Germany should pay for the needs of indigent
survivors.

20a
http://www.jpost.com/Opinion/Op-Ed-Contributors/Me
mo-to-the-Claims-Conference-We-Holocaust-survivorsare-not-dead-yet-362041
In connection with this statement and my live
testimony, I request that the Committee accept some
letters and other materials concerning this and the
other matters I have addressed here.
Survivors Are Not Asking for Help from U.S.
Taxpayers
Members of this Committee and Subcommittees, we
want to also be clear that Holocaust survivors are not
asking for more help from the U.S. taxpayers.
Survivors already benefit from many programs for the
elderly, and should continue to do so. We hope these
can be made better for all elderly in the U.S. However,
U.S. taxpayers are already burdened enough, and soon
10 million American baby boomers will be turning
65 every year for the foreseeable future. Shaving off
thin slices of these precious funds which themselves
have been sequestered and cut along with regularly
targeted funds added would make it tragic for survivors to be inserted in that long line of those seeking
those ever smaller funds.
Holocaust survivors endured ghettos, starvation,
disease, concentration camps, killing factories, and
death marches. We came to the United States and
became proud and productive American citizens. Many
survivors served this country in combat in Korea
and Vietnam. I myself am a U.S. military veteran.
Survivors are fiercely independent and never wanted
to rely on their fellow Americans for a penny of
assistance. These same survivors now have to ask for
help because they can no longer care for themselves.

21a
But the United States did not cause the problems
survivors face today – Germany did.
As a survivor I am sick as are my colleagues that
these taxpayer funds of HHS, and others are being
contemplated for use for us and our brothers and
sisters when we insist Germany’s full responsibility to
provide the actual costs of all the services remains a
moral and a practical imperative.
In this regard, I feel it is necessary to comment on
the recent initiative announced by the White House
about helping Holocaust survivors.
The White House announced an “initiative” to help
Holocaust survivors in need with a plan to appoint one
desk person at HHS to coordinate with social service
agencies, begin a program to recruit VISTA volunteers
to help survivors, and begin to organize fundraising
in the Jewish Federations to augment funding for
survivors’ needs.
As it currently stands, the White House’s announcement is deeply flawed. Survivors deserve the most
thorough, professional, and comprehensive care available,
not half-measures. And the Jewish community should
not be looked to for fundraising to fill these gaps – the
Jewish people were the victims, not the perpetrators.
The Jewish communities should not be called upon
today to provide the financial assistance that is
Germany’s responsibility, and be asked to shortchange other community priorities such as Jewish
education, youth programs of all kinds, providing
assistance for other Jews in need locally and
throughout the world, including other Jewish elderly,
and most recently, Israel’s humanitarian needs during
and after the war with Hamas.

22a
It isn’t like the Jewish Federations have not been
aware of the shortages in funding for survivors over
the past several years. They too have been hit hard
by the economy, and changing philanthropic trends
and lack of confidence in institutions as well. Further,
many communities have tried to hold special fundraising efforts, which are well-intended but never calculated
to nor have they succeeded in actually raising the
funds to provide survivors the full measure of assistance needed.
The survivors’ needs are vast and immediate. Why
should we Holocaust survivors always be subjected to
these kinds of compromises and flawed solutions? Wellmeaning but short-sighted suggestions that survivors’
needs can be addressed through volunteer programs
and extra fundraising in Jewish communities will not
suffice.
We raised all of these concerns with the Vice
President’s staff, and these are only some of the
reasons we believe the White House’s announcement
should be viewed as perhaps a starting point, but not
the end point for what is needed to provide the
complete and professional levels of care that survivors
need and deserve, and not to sidetrack a the urgent
business to immediately get this right for survivors, at
long last. This is in every sense of the word, a matter
of life and death. Where is the urgency?
If there is more Federal Government support or
more charitable contributions to help some of the
survivors in need as we all know about, it would be
welcome. But this is not the solution to the vast
problems survivors face today. This approach has been
tried for decades and it has not worked. When we are
talking about needing hundreds of millions of dollars
per year over and above what is currently being spent

23a
to properly care for survivors, raising a few million
dollars in the Jewish community will not come close to
solving the problem, and neither will $5 million or $10
million from the U.S. government.
If only all these well-meaning friends would simply
do the math to understand how survivors real,
medically mandated health care could never be met
under those solutions thus far put in place. The
Government of Germany is the only source of realistic
levels of funding to make a difference in the lives of
survivors living in poverty. The good-sounding negotiations results simply will never do that.
This past May, the Administration’s Special Envoy
for Holocaust Issues, and her colleagues, travelled to
South Florida to meet with the survivor community,
the adult children of survivors many of whom are
caretakers, and the Jewish Family and Children’s’
Services professionals who have the prime responsibility to administer what little funds exist for survivors.
These meetings took place in Miami, Fort Lauderdale,
Boca Raton, and West Palm Beach. I am proud that in
each community the survivors and family members
were united in our report: there is simply not enough
funding available to meet the needs that we know
about much less the problems faced by so many
destitute survivors too embarrassed to seek help.
While we were encouraged by the caring attitude
that the Administration’s people brought, we are very
concerned that their agenda is far too limited, i.e.
focused solely on making federal programs work better
for survivors. Well, that is a laudable and long overdue
goal, and we offered what support we could. However,
it would be tragic of the Administration lost sight
of the big picture and the urgency of the needs of
survivors today which can only be addressed by

24a
substantial increases in funding from Germany and
other culpable Holocaust countries and profiteers. We
implored the White House representatives to urge
the President and Vice President to take a leadership
position and bring our concerns to Chancellor Merkel
personally.
We know social service agencies and local leaders
throughout the United States charged with the responsibility to provide care for survivors have to manage
with insufficient resources. But their hands seem to be
tied when it comes to the most significant obstacles
facing survivors. Why don’t they speak up and support
the survivors seeking to hold Germany responsible for
providing the complete current amounts of funds
survivors desperately need. Why do retired German
WWII veterans and even SS officers receive ample
pensions and complete health care coverage, when
Holocaust survivors are forced to choose between
paying for food or medicine, and cannot pay for dental
care, home care, utilities, home care, and other basic
needs? This isn’t right.
Maybe, after this hearing and the Committee’s
work, the White House will immediately build on the
acknowledgement that the needs are great, and use its
unique authority to deliver the comprehensive
financial support that survivors need and deserve.
However, even without the White House, we believe
in this Committee and in our elected members of
Congress, led by you Congresswoman Ros-Lehtinen
and Congressman Deutch, and the 100-plus other
members of this House who have previously supported
the Holocaust survivors. We ask that you initiate an
effort with them to raise your collective voices with
Germany, as Senators Nelson and Boxer have done in
the Senate.

25a
Please, Madame Chairwoman and Mr. Ranking
Member and Members of this Committee, help us by
contacting Chancellor Merkel and your counterparts
in the German Parliament, the Bundestag, to get this
message understood once and for all. Otherwise, we
will die never seeing meaningful help provided to the
tens of thousands of brothers and sisters who need
help but continue to suffer.
We are losing more and more survivors every day
and they need our help now. We need to this Committee to figure out how much they need for housing,
dental care, home health care and other survivors and
then use your eminence as members of this great
United States Senate to help us secure the needed
funding, today, without any more delays. The German
government and the United States government
continues to protect the Allianz insurance company
and to hide behind the Claims Conference in providing
insufficient levels of care for tens of thousands of
survivors in need. We need the Vice President, the
entire Administration, this Committee and entire
Congress to pressure Germany, and all culpable
business entities, to fulfill their moral obligations to
Holocaust survivors, today.
What Happened After the 1997 Senate
Resolution Calling on Germany to Provide
Adequate Income Support and Full Health Care
for Holocaust Survivors?
In 1997, the United States Senate unanimously
passed a resolution co-sponsored by Senators Moynihan,
Graham, Hatch, Dodd, and Biden, calling on Germany
to provide adequate material and social service support
so that all Holocaust survivors could live in dignity.
The resolution noted that retired SS officers in Germany
and elsewhere receive far more generous health care

26a
benefits from Germany than Holocaust survivors.
It called for, among other goals, that “the German
Government should fulfill its responsibilities to
victims of the Holocaust and immediately set up a
comprehensive medical fund to cover the medical
expenses of all Holocaust survivors worldwide.” S.Con.
Res. 39, July 15, 1997.
Unfortunately, neither the Jewish community leadership, the Executive Branch, nor Congress followed
through on persuading Germany to live up to these
aspirations. Today, 17 years later, there is no more
excuse for delay.
The grandstanding, fractured, and irrational, biannual
announcements of Claims Conference-German secret
negotiations have got to stop as the means of caring
for survivors once and for all. It should be replaced by
the serious solution sought by the survivors who have
pleaded for this for nearly 15 years of agony and
endless suffering and inability to lift their brothers
and sisters in need into a reasonably comfortable and
dignified quality of life, and having watched as so
many survivors died in agony these past 15 years
while those in power ignored or failed to grasp the
seriousness of our plight. The above suggested process
is the only way once and for all to set the process right
and kill poverty among our ranks before it is too late.
Data on Survivors Living in Poverty
When the group of survivor leaders who eventually
started the Holocaust Survivors Foundation USA
started this effort back in 1998, 1999, 2000, there were
at least 87,500 U.S. survivors living in or near poverty,
which was half of the 175,000 living survivors in the
U.S. at the time. Today, there are some 110,000 living
survivors, and still, half – 55,000 – live below the

27a
poverty line or are considered poor. To us survivors,
it is unbearable to think about the tens of thousands
of survivors who already died in misery in this great
country without the care they needed. It is unconscionable that thousands of survivors, who went
hungry for years during the Holocaust, should have
died hungry or alone here in these great United States.
The current framework is not acceptable, and never
was. But now that this Committee is investigating the
status of survivors in the United States, we are
praying that this Committee’s work will not allow the
catastrophes of the past decade to be repeated.
Keep in mind that Holocaust survivors also suffer
from much higher levels of poverty than other elderly
because of the loss of parents, grandparents, the loss
of property and other assets, and the deprivation of
educational opportunities. Even many survivors who
did OK economically have outlived their resources,
and are now unable to afford the care they need.
Unfortunately, there is no comprehensive census
data that shows the number of survivors in the U.S.,
the number that live in poverty, and the kind of
care they are receiving via government and privatelydelivered services. However, there are several local
studies and national surveys that support the basic
finding that half of all survivors live below or near the
poverty level, and that the funding for survivors’ needs
is terribly inadequate everywhere. Here are a few of
these summarized.
National Data. As I noted, today, some 55,000
Holocaust survivors in the U.S. – half of the survivor
population here – live below or near the poverty line
and cannot afford sufficient food, shelter, medicine,
health care, home care, dental care, hearing aids,
eyeglasses, and other services necessary for a dignified

28a
old age. This number is derived from data from leading
demographers compiled by the Jewish Federation
system and filed with the Federal Court in 2004. The
number of U.S. survivors living in or near poverty at
the time was 87,500. (See Sheskin, Estimates of the
Number of Nazi Victims and Their Economic Status,
January 2004; 2000-01 National Jewish Population
Survey.) 55,000 is also the number cited by the Claims
Conference when describing the population of U.S.
survivors who are poor today.
Los Angeles. In December 2008, the Jewish
Federation of Los Angeles conducted a survey which
concluded that there are 10,000-12,000 Holocaust
survivors living in the Los Angeles metropolitan area,
most of whom are over the age of 85, 75% of whom are
female, and 49% of whom are “low income or poor.” See
Los Angeles Community Study of Vulnerable Jewish
Seniors and Holocaust Survivors, December 2008.
The Los Angeles study found, “[c]onsistent with
other national studies, Holocaust survivors in Los
Angeles are less affluent than other Jews, with 49%
of households either low-income or poor. Using the
federal poverty guidelines, 27% of survivors are living
at or below 100% of the guidelines.”
New York. A few years ago, the UJA-Federation of
New York City reported that “[t]here are 73,000 aging
Holocaust survivors in NY, half of whom are living
at or below the poverty level.” See http://www.face
book.com/ujafedny.
As I said before, a recent report in 2013 by Self Help
found that in 2013, in the New York City metropolitan
area alone, 26,572 survivors, or 41% of the New York
survivor population, required some help with daily
tasks.

29a
San Francisco. The Jewish News Weekly of Northern
California reported in 2008 that of 4,000 Holocaust
survivors living in the Bay Area, 1,000 of them “are
in trouble,” and that “the Jewish community is not
raising enough money to care for the poorest and
sickest in a proper and humane way.” See Anita
Friedman, “Holocaust Remembrance is About
Honoring the Living, Too,” Jewish News Weekly of
Northern California, May 2, 2008. These concerns
about the large number of survivors in need in the Bay
Area were again reported four years later. See
Deborah Garel, “As We Memorialize Shoah Victims,
Don’t Forget the Living,” Jweekly.com, April 12, 2012.
Washington, D.C. The Washington (D.C.) Jewish
Week reported in November 2012 that while “Claims
Conference money has never been enough to fund
the JSSA’s (Jewish Social Services Agency’s) support
for Holocaust survivors,” that in 2012 the agency
was estimating a $500,000 shortfall because of the
increased demand for services. See “Fiscal Cliff for
Survivors,” The Washington Jewish Week, November
28, 2012.
South Florida. In Miami, a 2003 survey (the most
recent one to ask the question) found that 39% of
survivors live below the official poverty level. No one
believes the situation has improved since then. But
the community isn’t even asking the question now –
either to avoid embarrassment, or perhaps because
they realize the results won’t make a difference with
today’s funding system.
In preparation for the 2009 Prague Conference
on Holocaust Assets, the South Florida social service
organizations met with the Holocaust survivor leadership and Congresswoman Ileana Ros-Lehtinen to
discuss the conditions facing survivors in the care of

30a
the communities there. In Miami, the director reported
that the survivors under the care of the Jewish
Community Services organization are mostly in their
late 80s and 90s, and require substantially greater
care on the whole than they did even a few years ago,
but the current system only provides a portion of the
hours of home care needed.
Broward County and Palm Beach Counties reported
larger but somewhat younger survivor populations,
with slightly lower levels of poverty levels and lower
levels of hours of care and emergency services needed
on average. So, Broward and Palm Beach Counties’
survivors were at the time of that meeting getting
about one quarter to one third of the home care they
needed, about 4-6 hours per week (like Miami 10 years
ago). Further, their emergency funds from the Claims
Conference are not only rationed every month, but run
out long before the end of the year. Because their
situations mirror what Miami looked like a decade
ago, we can assume the needs will continue to grow
among survivors there in the coming years.
I am including a current write-up from the Alpert
Jewish Family & Children’s Service organization in
West Palm Beach as an exhibit to my testimony.
Israel and elsewhere. There are also thousands of
impoverished Holocaust survivors living in Israel,
Europe, Canada, Australia, and South America who
are not receiving the services they need for a dignified
quality of life. According to the Claims Conference in
2010, the number of Holocaust survivors living in or
near poverty in Israel was 74,000, and the number in
the former Soviet Union was 90,000. When the 55,000
poor U.S. survivors are included in this ghastly count,
it shows 219,000 Holocaust survivors living in
or near poverty worldwide. As has been widely

31a
reported to the shock and dismay of many, even survivors in Israel do not receive proper and needed care,
due to funding shortages from Claims Conference and
the Israeli government, it doesn’t. See, e.g. Liel Leibovitz,
“Israel’s Starving Survivors,” Tablet, April 8, 2013;
Daniel Ziri, “Budget Runs Out for Holocaust Survivors’
Expenses,” The Jerusalem Post, August 11, 2012.
Insurance Companies’ Responsibility
Congresswoman Ros-Lehtinen and Congressman
Deutch, we also appreciate your introducing HR 890
in 2011 and pushing as hard as you did to have it pass
through this Committee and go further. That bill
would have restored Holocaust survivors’ rights to sue
Allianz, Generali, AXA, Munich Re, Swiss Re, Zurich,
Basler, RAS, Victoria, and other global insurers who
dishonored insurance policies they sold to our parents
and grandparents. The failure of your bill to advance
to even a floor vote in the House (and of S. 466 to
advance to a vote in the Senate Judiciary Committee)
remains a bitter disappointment to Holocaust survivors and our families. I would like my testimony before
the 2008 Senate Foreign Affairs Committee, and the
testimony of fellow HSF executive committee member
Renee Firestone in the House and Senate in 2011 and
2012, along with my other HSF colleagues who have
testified on the insurance issue and other issues of
vital concern to survivors, to be deemed an official part
of this hearing record. Here are the citations:
http://www.foreign.senate.gov/imo/media/doc/RubinJTe
stimony080506p 1.pdf
http://archives.republicans.foreignaffairs.house.gov/11
2/fir111611.pdf
http://www.judiciary.senate.gov/pdf/12-6-20FirestoneTe
stimony.pdf

32a
http://democrats.foreignaffairs.house.gov/110/rec03280
7.htm
http://archives.republicans.foreignaffairs.house.gov/11
2/71263 .pdf
http://judiciary.house.gov/hearings/pdf/Dubbin100922
.pdf
http://archives.financialservices.house.gov/hearing110/
arbeiter020708.pdf
http://archives.republicans.foreignaffairs.house.gov/11
0/sch032807.htm
http://archives.republicans.foreignaffairs.house.gov/11
0/rec032807.htm
http://www.gpo.gov/fdsys/pkg/CHRG-110hhrg38141/pd
f/CHRG-110hhrg3 8141.pdf
http://archives.republicans.foreignaffairs.house.gov/11
0/mos100307.htm
http://archives.republicans.foreignaffairs.house.gov/11
0/rub100307.htm
The reason is that my colleagues and I have
attempted to bring the concerns of the survivor community before this Congress over the past decade
on several occasions, and our positions have been
thoroughly documented and supported. But we have
been overwhelmed by the moneyed interests of the
insurance companies, the misrepresentations of the
Bush and Obama Administrations, and the treachery
and dishonesty of certain non-survivor Jewish groups
led by the Claims Conference, ADL, AJC, B’nai B’rith,
Agudas Israel, the World Jewish Congress, and Stuart
Eizenstat.
But insurers collectively owe Holocaust survivors
and our families well over $20 billion in today’s

33a
dollars, and they have denied us our families’ historic
and financial legacies. Thousands of survivors have
died as second class citizens in this country without
the ability to reclaim their families’ financial and
historic legacies. It is criminal that the insurers remain
immune, with the assistance of those I just named.
I raise this here for several reasons. First, even if
survivors’ legal rights were restored and all traceable
beneficiaries and heirs are paid, there would still be
billions of dollars in likely heirless proceeds these
companies could and should contribute to a fund to
assist survivors today. As I said in 2008, what about
the policies that went up in flames in AuschwitzBirkenau, and the other death camps? Why should
Generali and Allianz be the heirs of the Jewish families who were annihilated?
I raise this for another reason. As you surely recall,
to defeat our efforts going back to 2007 in Congress to
restore survivors’ legal rights, the insurers, the State
Department, and even some Jewish groups made the
argument that restoring survivors’ legal rights would
result in less funding from Germany for the needs of
indigent survivors. This was and is an outrageous
argument. One thing has nothing to do with the other.
Insurance companies should pay their debts and survivors should be able to sue them if they breach their
contracts. That has nothing to do with Germany’s long
overdue moral obligation to provide adequate funding
for the needs of survivors, a duty it has ignored and
only recently began to address due to pressure from
the survivors and our allies here in Congress.
But if you go back to the actual hearing record in the
Senate back to 2007 and 2008, you will see that the
Claims Conference witness cited this argument while
was bragging about having secured $70 million from

34a
Germany for “additional home care funding” – for the
entire world! We pointed out that $70 million for two
years, or $35 million per year, for the 50,000 survivors
then being served, would generate a total of $700 per
survivor for home care funding – about 4 weeks of
home care given the average cost of $15 and average
need of 15 hours per week.
Germany doubled these home care funds again in
2010 and 2013, culminating in the home care fund
discussed above that will address only 25% of the
survivors’ needs. If the funds from Germany have
doubled three times and now will only meet onequarter of the needs, this Committee can easily see
that a far more direct and forceful response is desperately needed. This is what survivors are hoping will
result from today’s hearing and your next steps.
Of course, we hope and expect that Congress will
take up a bill like HR 890 early next year and pass it
so survivors can recover our family insurance policies.
However, in addition, we believe that the insurers
such as Allianz and Generali and others who profited
from the Holocaust should also contribute to the kind
of fund we are urging here to provide for all survivors’
needs, immediately, and without further haggling.
They have the money – they stole it. They can pay it
out today to relieve survivors’ suffering, some of which
they caused.
Survivors’ Care Remains Germany’s Responsibility
Nothing has changed since Chancellor Adenauer’s
remarkable assertions of German responsibility in the
1950’s! Instead Germany, under the present newly reelected government has actively successfully pushed
their own responsibilities to the US government and

35a
the American Jewish community instead. How bizarre
is that? We are outraged and we beg this committee,
especially you, Madame Chairwoman and Ranking
Member Deutch, who have sat so ably on the Foreign
Affairs Committee for all these years, to press the
Secretary of State and the President, who have developed close ties to Chancellor Merkel and visited the
camps with her and with Elie Wiesel, to change all this
now, and get back to providing sufficient funds directly
to meet survivors’ actual physical and mental needs.
The cost of a proper, comprehensive, and permanent
program would be minimal compared to Germany’s
and the insurers’ resources – but would provide a vital
lifeline to survivors who need and deserve it.
While you may think a turn-around is impossible
to refocus on Germany’s responsibility. We believe
because of the very personal ties which exist uniquely
at this time in the relationships with Chancellor
Merkel, and with you, Madame Chairman, and the
Secretary of State, a concerted effort to renew and
refresh German’s role is promising and should be tried
on a concerted high level it should work. I am sure Elie
Wiesel would join such an effort just as he did a the
Prague conference on this subject and his visits with
the President and Merkel at Bergen Belsen
Concentration Camp as well as other such meetings.
Let me remind the Committee of Elie Wiesel’s words
to the 2009 Prague Conference:
However it is with pained sincerity that I
must declare my conviction that living survivors of poor health or financial means,
deserve first priority. They suffered enough.
ANd enough people benefitted FROM their
suffering. Why not do everything possible and

36a
draw from all available funds to help them
live their last years with a sense of security,
in dignity and serenity. All other parties can
and must wait. Do not tell me that it ought to
be the natural task of local Jewish communities; let’s not discharge our responsibilities by
placing them on their shoulders. WE have the
funds. Let’s use them for those survivors in
our midst who are on the threshold of despair.
If only this could be the serious focus by all high
level persons, led by you, Chairwoman Ros-Lehtinen
and Ranking Member Deutch, it would finally cut
through the talk and false efforts once and for all then
to provide actual meaningful care not gimmicks which
won’t work once again leaving survivors continuing to
suffer until they die.
Thank you again to the entire leadership of this
Committee and Subcommittees to hear us, to bring
these issues to light, and for your efforts past and
future. They are historic and extremely important.

37a
APPENDIX C
STATEMENT OF KLARA FIRESTONE
UNITED STATES HOUSE OF
REPRESENTATIVES
COMMITTEE ON FOREIGN AFFAIRS
The Struggles of Recovering Assets for
Holocaust Survivors
September 18, 2014
My name is Klara Firestone. I was born in Prague,
Czechoslovakia immediately following the end of World
War II, and I am the daughter of two Holocaust survivors. I am the founder and president (for my second
term) of Second Generation of Los Angeles, a founding
member of Generations of the Shoah International
(GSI), and sit on the Board of the Los Angeles Museum
of the Holocaust, the first museum and monument to
the Holocaust in the United States. Since founding
Second Generation in 1978, I have been steeped in
Holocaust affairs and have worked hand-in-glove
with the members of the survivor community in Los
Angeles and our surrounding counties. I come here
today to speak on behalf of myself, my family, and the
hundreds of Survivors and Second Generation who
I have counseled and ministered to over the past
37years, and who have not had a voice to advocate for
their rights. As the leader of Second Generation of Los
Angeles, I have facilitated hundreds of support groups
for children of Holocaust survivors, and in more recent
years, after becoming a psychotherapist, I facilitated
therapy groups for Second Generation. I have also
been instrumental in helping survivor families navigate what have often been very complex and difficult
relationships between parents and children given the

38a
extreme trauma that served as the backdrop for our
developmental years, and most of our lives.
There is a long trail of problems that tens of thousands of survivors and family members have confronted,
too often with incredibly frustrating and painful
outcomes. The status quo is obviously not acceptable.
If half of all survivors worldwide – including in the
United States – are living today in or near poverty,
unable to afford even the basics for a dignified old age,
the approach of the past 50 years is obviously wrong.
The temptation is great to dwell on the past, but we
know you called this hearing to see what can be done
TODAY to make a change for the better. What can be
done today for survivors and their family members
who have suffered terribly and continue to suffer? The
answer is very plain: Germany must assume the
responsibility to provide for all medically necessary
and basic income needs of all Survivors.
I would add my voice to the others who have discussed many of the medical and emotional issues that
survivors and the Second Generation must deal with
on a daily basis. The problems are real, and they
require serious professional attention, with properly
trained health care and psychological care givers who
understand the unique problems that survivors and
their children must deal with. Proper care requires a
sea change in the funding available, and it is only just
and right that this responsibility be assumed by the
German government, and other entities that collaborated and profited from the Holocaust. Later in this
statement, I address the extremely important issue of
the plight and suffering of so many of our Second
Generation members, who are the forgotten victims of
the Nazi’s atrocities and also deserve immediate and
comprehensive support from Germany.

39a
If this Committee does one thing as a result of this
hearing, we ask that you undertake a concerted, bipartisan, and relentless effort to convince Chancellor
Merkel and the German Bundestadt to make good on
Chancellor Adenauer’s pledge in 1952 to take care of
Holocaust survivors “to their last breath.”
As my fellow panelist, Holocaust Survivor, Jack
Rubin, stated in a recent Op-ed in the Jerusalem Post:
“[T]he fact is, Germany caused the massive medical
and emotional problems survivors are confronting
today, and Germany should pay for all of the survivors’
needs, without the bargaining and compromising
that has become the Claims Conference’s specialty.
Survivors and heirs should have the right to recover
their lost assets, including German properties,
insurance claims, and artworks, and Germany should
pay for the needs of indigent survivors.”
My testimony follows in the footsteps of my mother,
Renee Firestone, who appeared before the full House
Committee on Foreign Affairs on November 16, 2011,
and before the Senate’s Judiciary Committee on June
20, 2012. In the interest of conserving time, I have
included her full written testimony to the House
Committee as an exhibit to my written testimony and
I reference it here, at this juncture. I wish, however, to
point up a few salient points from her testimony.
At the age of 20, my mother was imprisoned for 13
months in the infamous death camp known as
Auschwitz/Birkenau during the last years of World
War II. Her mother, my grandmother, was never even
processed into the camp, but was gassed immediately
on arrival to Auschwitz. Six months after arrival at
the camp, her 16 year old sister, after whom I am
named, was first experimented upon before being
shot by the Nazis to avoid her re-entering the general

40a
population of the camp and possibly exposing what the
Nazis were doing. Her father, Morris, died of tuberculosis shortly after liberation. Her brother Frank,
who had been a partisan . . . a resistance fighter . . .
was the only other member of her immediate family to
survive. In addition, we lost almost all of our huge
extended family.
Following liberation in 1945, she was reunited with
her brother and soon-to-be husband, my father Bernard,
who had been in a Hungarian forced labor camp and
then interned at Mauthausen concentration camp.
When the Holocaust ended, the fragments of Europe’s
Jewish communities emerged broken and tattered,
wanting nothing more than to find who of their
families survived and begin rebuilding their lives.
They were too busy fighting their “demons” to care
about fighting bureaucracy in order to claim what was
due them. Many believed, as my mother also did then,
that this was “blood money” and wanted nothing to
do with it. They asked the question, “How can you
compensate me for the loss of my parents, brothers,
sisters, aunts, uncles, cousins, etc. in dollars? What
value should I assign that? So once again, their claims
and needs went unmet. In the years immediately
after the war, these very young survivors traveled to
whichever country would allow them access and safe
haven, thankful to have the chance at new lives.
A handful made it to phenomenal wealth, but the
majority did not, and today the educated estimates are
that approximately half of all survivors in the United
States are living at or below the poverty line. Yet
when they have tried in the past to gain some measure
of justice, they have been met with the appalling
intransigence of the Claims Conference leadership and
had the doors slammed in their faces.

41a
Can someone please tell me why, after suffering the
humiliations and brutality of the Nazis, the survivors
must now go begging for what is rightfully due them,
suffering additional indignities and being re-traumatized, only this time by the ones who are ostensibly
there to aid them! If you could hear the comments and
cries of the survivors at this betrayal, it would break
your hearts, just as it broke mine.
As the most active and visible leaders in our survivor community, my mother and I have been approached
hundreds of times by survivors and their children
beseeching us to intervene on their behalf to recover
restitution which is rightfully theirs. Time and time
again we have attempted to do just that, and we, too,
have been unsuccessful.
Even advocating for my own family has proved to no
avail. My beloved father passed away in 2001. Prior to
his death, he had received a letter from the Claims
Conference confirming that they had assigned him a
claim number for a particular fund and he would soon
be receiving the monies. After contacting them numerous times over the years, we are still waiting for those
funds. They now claim that they are unable to find his
claim in the system. You cannot imagine the pain this
causes the loved ones of a Holocaust survivor, not to
mention re-traumatizing the survivors themselves,
and this is the kind of problem I hear about over and
over again.
With so many obstacles to obtaining what belonged
to them, the survivors sought a different route to
recover some part of their family legacies. They attempted
to file claims with the insurance companies that had
insured their parents’ lives and properties through the
auspices of ICHEIC, the International Committee on

42a
Holocaust Era Insurance Claims. Once again they hit
a wall, thwarted by the ineffectiveness of ICHEIC.
My mother spoke to me numerous times about her
certainty that her father had insurance to cover his
business, their home, and his life. Her comment was
almost always the same, “My father was sort of the
patriarch of the family. Everyone, including his
brothers and sisters would come to him for advice on
all matters. Why would he advise his relatives to get
insurance and then not purchase it for himself and
his family?” This makes no logical sense. By a stroke
of magical luck, my mother’s first cousin found some
documents when he went home after the war, including the insurance policy of his parents. He was the
very first survivor to recover from ICHEIC because of
this document, although others were not so lucky. And
when the children of his deceased brothers finally
discovered that they could claim as well, they tried but
were told that the claim had already been paid. So
much for “adequate and sufficient notice to claimants.”
As my mother stated in her testimony on November
16, 2011,
My father was a very responsible man, with a
business and real property in order to provide our
family with an upper middle class standard of living
in pre-war Czechoslovakia (annexed by Hungary in
1938). I am certain he had insurance. But when I filed
my claim, after all the fanfare, the Commission
(ICHEIC) informed me that his name was not on any
of the lists. This is difficult for me to accept, but since
it is well-known that the lists produced by Generali
and the other insurance companies were incomplete,
I wonder why the U.S. government has neither
demanded a full accounting, nor allowed the states to
require it.

43a
* * *
Here are some facts that this Committee and Congress
should know about when they come to evaluate the
insurance companies’ and anyone else’s claim that
Holocaust survivors, and the children and grandchildren of Holocaust victims, should be satisfied with
ICHEIC, rather than have our rights enforced.
ICHEIC was chartered under Swiss law and headquartered in London to avoid American public record
laws and court subpoenas. It was funded by the insurance companies themselves, its meetings were conducted
in secret, and minutes were not even published of the
secret meetings.
Almost all survivors were frustrated and insulted by
their ICHEIC experiences. This was conveyed to Congress
in a series of hearings between 2000 and 2003. The
survivors regaled experiences such as multi year waits
for responses, denials without any explanation, demands
for information that no claimant could be expected to
know (such as the birthdates or death certificates of
relatives who perished in the Holocaust), and denials
of claims even where policies were proven to have
existed (Generali’s “Negative Evidence Rule”).
In its first five years, ICHEIC spent more money
on administrative expenses than it paid in claims.
Chairman Lawrence Eagleburger told a Congressional
Committee that ICHEIC’s internal processes were
“none of its [Congress’s] business.”
In 2002, Congressman Henry Waxman wrote:
“Holocaust survivors have been waiting decades to
reclaim Holocaust-era insurance policies. Unfortunately,
the . . . majority of the companies that have agreed
to the ICHEIC process have not lived up to their
obligation to disclose policyholder lists. The ICHEIC

44a
member companies also appear to have wrongfully
rejected, undervalued or left unanswered the claims of
many survivors.”
In 2003, Congress even passed a law – the Foreign
Affairs Authorization Act – that required the State
Department to collect information on ICHEIC companies’ claims, practices, and results. However, ICHEIC
refused to comply with this requirement as the
State Department reported in its annual reports each
year.
When ICHEIC ended in 2007, it had paid fewer than
14,000 of the 800,000 life/annuity/endowment polices
estimated to be owned by European Jews in 1938. The
total paid on policies was $250 million, less than three
percent (3%) of the $18 billion in outstanding values
at the time, according to the estimate of economist
Zabludoff, using what he regards as very conservative
numbers. Today the unpaid amount of Holocaust era
insurance policies exceeds $20 billion.
ICHEIC also issued 34,000 checks for $1000 each
which it termed “humanitarian” in nature, but which
survivors considered insulting rejections. Yet ICHEIC
and its supporters today take credit for having “paid
48,000 claims,” an obvious attempt to inflate its results
and give the appearance of success to a process that
badly failed.
You can also imagine our shock when, after ICHEIC
ended, its Chief Executive Officer, Mara Rudman,
became a paid lobbyist for the American Insurance
Association – the umbrella U.S. group lobbying against
the original version of HR 890 that was introduced by
the late Congressman Tom Lantos in 2007. Mr. Lantos,
the only Holocaust survivor to ever serve in Congress,
was a dear friend of mine. His widow, Annette Lantos,

45a
as well as his daughter Katrina, have remained committed advocates for the rights of Holocaust survivors.
As a Californian, I am also proud to say that our
Insurance Commissioners, especially former Commissioner, and now Congressman, John Garamendi,
were among the very few who stood toe to toe with the
insurance companies and even the Jewish groups on
ICHEIC who were so ready to cave into the insurance
companies and short-change the survivors. Mr.
Garamendi fought passionately for our interests.
Unfortunately, despite Mr. Garamendi’s tireless
efforts to make ICHEIC work to benefit claimants, the
insurance companies won big by paying so few policies,
by paying such small settlements, and by convincing
the Supreme Court that the states did not have the
right to allow us Holocaust survivors to hold the
insurers accountable for their actions. This loss was
devastating, and shocked survivors throughout the
State and the country.
Not only are we distraught over the way the courts
have disrespected Holocaust survivors, but the records
that the Holocaust Survivors Foundation USA has
found under the Freedom of Information Act show that
the State and Justice Departments acted terribly in
their court papers and Congressional testimony. We
cannot understand how our own government became
the adversary of Holocaust survivors in the 21st
Century.
Despite the claim that the United States and Europe
have been “successful in Holocaust restitution,” that is
far from the truth. Specific property restitution f
or individuals has been largely unfulfilled. Only a
fraction of the properties actually looted during the
Holocaust were “recovered” or restituted in any general

46a
sense, and of those funds, only a small portion
recovered and deemed “heirless” or for “humanitarian
purposes” has trickled down to meet the pressing social
service needs of the remaining Holocaust survivors.
Tragically, tens of thousands of survivors, including
many thousands in the US, are facing dire problems.
They cannot meet basic home and health care needs, or
pay for medicines, dentures, eyeglasses, hearing aids,
or walkers, or receive transportation to the doctor. This
may shock most leaders and public officials, but it has
been documented with increasing frequency in the
Jewish and mainstream media.
In the United States, half of all survivors – more than
50,000 – either live below the poverty line (25%) or have
incomes so low they are considered `poor” given the cost
of living in their communities. In my hometown of Los
Angeles, 39% of all Holocaust survivors live below the
poverty line. This is a moral and human tragedy that
should never have been accepted, but it was, and it
continues today. Yet we survivors, and our children,
are dealing with these tragedies day in and day out,
and the governmental and philanthropic establishments have been sadly protective of status quo
organizations and corporations, rather than protective
of survivors’ rights, interests, and needs.
How did this state of affairs come to pass? The role
of the Conference on Jewish Material Claims Against
Germany, Inc. (“Claims Conference”) in the restitution
failures is a common thread that cannot be ignored.
One of the reasons victims have done so badly in the
property and insurance negotiations is that the organizations primarily doing the negotiating (the Claims
Conference, the World Jewish Congress, the World
Jewish Restitution Organization—WJRO) are less
interested in individual claims being honored than in

47a
“global settlements” which result in funds they can
control. Even Stuart Eizenstat, no champion of survivors’
rights, recognized this in his book Imperfect Justice.
As reported in the media and testified in Congressional committees, the Claims Conference has drawn
the ire of Holocaust survivors throughout the world for
its lack of survivor representation in policy making,
for policies that cause grave harm to thousands of
impoverished survivors, for its lack of transparency in
the handling of restituted assets, and worst of all, for
its use of restitution funds for pet projects including
grants to board members and cronies of organization
officials, and other serious concerns.
The Claims Conference is a creation of the early
1950’s. It reflects a political decision made by leaders
of the Jewish community and the German government,
in the aftermath of the Holocaust, to have a mechanism
to channel German reparations to Holocaust survivors.
For over 40 years, there were no official survivor organizations on the Claims Conference board of directors.
In the 1990’s two “survivor groups” were added to the
board, but today only 2 of the 24 voting board members
are survivor organizations. So, the Claims Conference’s
board members and officers were neither elected by
survivors, nor does it morally represent the Nazi victims
in whose names the organization obtains its funds.
After German reunification in the early 90s, Germany
passed a law making the Claims Conference the legal
heir (“successor organization”) to East German properties not claimed by direct heirs within the outrageously
short time limit set by the Germans. However, the
Conference did not publish information about the
names of the Jewish owners of these properties, and
then claimed them as their own! To make matters
worse, the courts have supported the Claims Confer-

48a
ence’s claim to ownership of such properties – even
against the legitimate heirs of Holocaust victims who
had no idea about the two year deadline – including
many who understandably had no idea about family
assets before the devastation of the Holocaust.
Moreover, the Claims Conference has never fully
accounted for nor disclosed information about properties it obtained after German reunification that were
owned by Jews before World War II. Nor has there ever
been an audit of the organization’s asset base by an
independent outside authority that is accountable to
the public or the government.
The shell game taking place was that the Claims
Conference ousted thousands of German property heirs
of their rights, and then turned around and used the
properties for various “research, documentation, and
education “ projects which were only authorized for the
Claims Conference after it amended its by-laws in 1994
– not coincidentally after becoming the “owner” of the
“heirless” Jewish German properties.
Yet, without a mandate to use all of the funds at its
disposal for the needs of survivors, it has spent far in
excess of $250 million in the last 15 years on projects
unrelated to survivors and their welfare. Many of
these “research, documentation, and education grants
are made to organizations that sit on the Claims
Conference Board of Directors. Survivors question the
legitimacy of these grants, and have for over a decade,
yet we hear silence from most public officials and
private community leaders.
Let me repeat – despite tens of thousands of impoverished Holocaust survivors suffering from inadequate
nutrition, housing, medical care, home care, and other
vital services, the Claims Conference has seen fit to

49a
squander $250 million for non-survivor “research, education and documentation “ projects, including many
insider grants – a quarter of a billion dollars worth of
guaranteed Holocaust survivor suffering intentionally
imposed by the Claims Conference. How can Congress
and other leaders be silent in the face of such cruelty?
There has never been a full, public accounting of the
actual value of the assets, including real estate, art,
and other properties in the Claims Conference’s
inventory of assets. This lack of information is not only
inconsistent with all modern notions of necessary
transparency of organizations dealing with the public
trust, but it makes a mockery of the constant refrain of
the past decade – that it “does not have enough funds”
to meet the current needs of survivors around the
world.
Among the many terrible, painful, and disgraceful
indignities we have been made to suffer occurred in
2002 when Israel Singer, then-President of the Claims
Conference (and simultaneously Secretary General of
the World Jewish Congress) wrote an article in a
prominent Jewish journal giving elaborate details
about all of the education and building projects that
the Claims Conference was going to create “with
Holocaust restitution funds after the survivors
are gone.” This column outraged survivors throughout the country, as Holocaust Survivors Foundation
USA President David Schaecter wrote in response:
How can plans for a “Jewish People’s Fund”
go forward while survivors languish on
waiting lists for the health care they deserve,
especially after all they have endured? How
dare these institutions presume to spend
“restituted” funds for their favored “philanthropic” projects into the next century, using

50a
money claimed from the most terrorized
victims of the past century? Who will take
responsibility for ensuring that the individuals around whom much of our modern
Jewish existence is centered - Holocaust
victims - are not abandoned a second time?
Despite an outpouring of survivor anger, and limited
media coverage of this startling admission by Rabbi
Singer that what the survivors had feared all along
was really being planned, very little changed. Pressure
from some communities has caused the Claims Conference to increase allocations here, and there, as if they
were applying grease to a squeaky wheel. But how can
survivors’ rights be toyed with so shamelessly?
You might recognize Mr. Singer’s name. He was
dismissed in early 2007 from his position as Secretary
General of the World Jewish Congress for a variety of
financial improprieties, including taking over a million
dollars from one of the Claims Conference organizations (the Jewish Agency) and placing it in a secret
Swiss Bank account. Yet for a long period, he retained
his position as President of the Claims Conference,
while the Chairman, Julius Berman (who remains
Chairman today), saw “no reason to take action” and
remove him because Rabbi Singer allegedly “has never
been involved in the financial decisions of the Claims
Conference.” Ultimately, public pressure caused the
Claims Conference to dismiss Rabbi Singer.
However, for purposes of HR 890, it is important for
this Committee to understand that during the entire
ICHEIC period, when it opened in 1998 until it closed
in March 2007, Israel Singer was the “leading” voice of
the “Jewish” side. As noted, this was a body where the
insurance companies were fully represented, but not
claimants. ICHEIC documents show that Rabbi

51a
Singer himself represented three different “Jewish
groups” on ICHEIC – the Claims Conference, the World
Jewish Congress, and the World Jewish Restitution
Organization (WJRO). So, when these groups stand
before Congress to oppose my constitutional right as an
American citizen to go to court against these insurers,
based on ICHEIC, they are really defending outcomes
engineered or approved by an insular group of nonelected and non-representative big-shots with no legal
or moral right to speak or act for us, the victims, or our
families.
The Claims Conference has continued to act as if it
owns these survivor funds, and the sincere outcry of
decent people has been overwhelmed by the institutional power of the Claims Conference’s funding
practices. These practices include silencing opposition
by funding a myriad of non-survivor programs around
the world, and by creating the fear in communities that
it might reduce the minimal funding it provides to
Jewish family service organizations for survivors’
needs.
Had they been able to pursue a recovery on these
insurance policies, perhaps we would not have had the
need to be here today and the survivors would have
had the financial resources to live out their golden
years in peaceful and dignified security.
In more recent years, the Survivors trusted that the
U.S. government believed the survivors had made
great contributions to their adopted homeland and
were valuable enough to accord them the same rights
as every other citizen of this great country. And here,
too, they were grossly disappointed . . . by our own
State Department, Executive Branch of our government, and by Congress in not restoring the survivors’

52a
right to have their “day in court” against the insurance
companies.
Finally, I wish to touch on an issue which has yet to
be discussed, but vitally important, and which has no
other platform to be heard. And that is the plight and
suffering of many of our Second Generation members.
Although we are not always certain of the mechanism
and how it functions, there is an awareness now of
something called “transmitted trauma,” the concept
that the trauma our parents went through has been
passed down to some of us, the results of which
manifest as if they themselves had experienced the
trauma directly. They exhibit a sort of vicarious
PTSD, Post-Traumatic Stress Disorder, with all the
attendant symptomology . . . “flashbacks” of events
that they did not experience, but were most likely
gained from stories fed to them “with mother’s milk”
at an impressionable age, irrational fears such as
people coming in the middle of the night to take them
away, hallucinations that Nazi soldiers are coming
down the aisles in a movie theater, startle reflex, etc.
I can’t begin to tell you the number of desperate calls
I have received from survivor parents troubled over
their child’s mental health. Some of these children
have been so damaged by the time they reached their
teenage years that they have been totally disabled and
dysfunctional for the rest of their lives. Additionally,
for some of them who have only been marginally
affected by their parents’ experiences, the stresses of
now having to be caregivers to their parents while
experiencing financial hardships has taken an
enormous emotional toll on us. The survivors come
with unique “baggage” that only serves to exacerbate
the already difficult and stressful task of caring for an
aging parent.

53a
We have watched and suffered alongside our
parents in their struggle for justice. The thought that
our “inheritance” will go into the coffers of the Claims
Conference and its affiliates just heightens our
frustration and pain. On June 22, 2014, the JTA
published an article entitled Considering future,
Claims Conference weighs shutting down vs. Holocaust
Education. In that article, the Claims Conference
stated, “Given the Claims Conference’s successes at
convincing Germany to increase its funding for
survivors, the panel concluded that “to close down
without attempting to leverage its position and
significant experience in the service of Holocaust
education and remembrance would be to miss a major
opportunity. “http://www.jewishpress.com/news/break
ing-news/considering-future-claims-conference-weighsshutting-down-vs-holocaust-education/2014/06/22/.” The
survivor community’s response was incredulous. First,
with half of all survivors living in or near the poverty
line and lacking the funds they need for even basic
necessities of life, the statement that the Claims
Conference has been “successful” in obtaining funding
for survivors defies reality.
Further, it is offensive to survivors and their family
members to perpetrate the myth that the Claims
Conference is indispensable for Holocaust education
and remembrance. Who do they think has been providing it all these years since the end of the Holocaust?
The answer is: The Holocaust Survivors and their
families. Who has spearheaded and funded all the
Holocaust museums and memorials and monuments
in this country and abroad? The survivors! And who
began the process of educating the masses on the
atrocities and lessons gleaned from the Holocaust?
The Survivors! My mother said to me, “If they want to
pay for Holocaust education, they can start by paying

54a
me for the 35 years I have been speaking to the world
about my experiences.”
And, in the unlikely event that any funds should
remain after the last of the Survivors have left this
world, those funds are the rightful inheritance of the
children and grandchildren of the Survivors, and only
they can and should decide how that is disposed of.
We children of survivors feel the inadequacy of our
words whenever we attempt to convey the suffering
of our parents and families to others, especially to
the members of this Honorable Committee, our own
representatives, all of which suffering was for no good
reason. Except now, we have the platform to express
the harsh fact that Germany has shirked its responsibilities to our loved ones who are without adequate
resources to be cared for properly and to allow for a
healing of the physical and mental wounds obtained
at the hands the Nazi German Regime. Why should
others who are not the perpetrators be pushed to
provide inadequate resources thus allowing the tragic
suffering to continue to this day without relief?
That is why we are so grateful to you, the members
of this Committee, for the opportunity to plead our
cause and to urge you, in the strongest terms, to use
your power and press our own government, starting
with the President, the Secretary of State and the
Attorney General, and all of you, to demand that
Germany provide the ADEQUATE funds necessary
until all survivors have gone, as was promised by
Chancellor Adenauer right after the War’s end. Our
efforts for decades in this regard were without appropriate answers. Nothing! Instead silence. followed by
crumbs when the fenders got around to it.

55a
It is “one minute to Midnight” and if something
is not done quickly and sufficiently, my fear is that
thousands of the remaining survivors will die tragically, suffering their unmet medical and psychological
needs.
Simply put, Germany must resume its moral
responsibility to care for ALL the medical and mental
health needs of the survivors and their families, with
no more back turning or sloughing off these huge
responsibilities onto the shoulders of others.
We call upon this honorable Committee and its
members to press Chancellor Merkel and the German
government to fully fund the needs of our aging
Survivors, without offset or delay.
Chairman Ros-Lehtinen, thank you for allowing me
to testify, and I request that I can submit the attached
exhibits in the Hearing Record. I also wish to thank
Chairman Royce for allowing Mr. Rohrabacher,
Chairman of the Europe Subcommittee, and Ms.
Ros-Lehtinen and Mr. Deutch, Chairman and Ranking
Member of the Middle East and North Africa Subcommittee, to hold this hearing. I thank Mr. Rohrabacher
for agreeing to co-sponsor this hearing. And, a most
special thank you goes to Congresswoman Ros-Lehtinen
and Congressman Ted Deutch, who have been the
most steadfast supporters of the Survivor community
and champions of our cause against tremendous odds,
for many, many years.

56a
APPENDIX D
STATEMENT OF RENEE FIRESTONE
UNITED STATES SENATE COMMITTEE ON
THE JUDICIARY HOLOCAUST ERA CLAIMS
IN THE 21st CENTURY
June 20, 2012
My name is Renee Firestone. I was born in Uzhorod,
Czechoslovakia. At the tender age of 20, I was imprisoned for 13 months in the infamous death camp known
as Auschwitz/Birkenau during the last years of World
War II. My entire family was murdered, except for my
father Morris, who died of tuberculosis shortly after
liberation, and my brother Frank, who was a partisan.
Following liberation in 1945, I was reunited with my
brother and my soon-to-be husband Bernard. I settled
in Prague, Czechoslovakia, where I was able to complete my education in the Prague School of Commercial
Arts. In 1948, I emigrated to the United States with
Bernard and my infant daughter, Klara. I settled in
Los Angeles, where I pursued my love of fashion, and
was fortunate to work hard and enjoy a fulfilling
career as a fashion designer.
Of course, the devastating losses I experienced are
with me every single day of my life. Because of
what we experienced, I have devoted thousands and
thousands of hours of my personal time to educating
adults and students of all ages and all walks of life,
throughout the U.S. and Europe, about my experiences as a Holocaust survivor. I have spoken at
workshops and conferences, and have been interviewed in the media countless times regarding the
Holocaust and its contemporary implications.

57a
Because of the trauma I experienced, in the 1990s
when everyone started talking about restitution of
looted assets, I was naturally anxious to locate any
remnant possible that would allow me to have a record
of what my parents had been able to create and build
before the onslaught of the Nazis. Unfortunately, the
promises fell criminally short of what I and other
survivors hoped for, and deserved.
The Search for Family Insurance Policies
My father was a very responsible man, with a
business and real property in order to provide our
family with an upper middle class standard of living
in pre-war Czechoslovakia (annexed by Hungary in
1938). I am certain he had insurance because my first
cousin Fred Jackson (aka Ference Jakubowitz, the son
of my father’s sister) was the very first person to have
a claim approved and paid by ICHEIC under his
parents’ policy. Since my father was the one who
advised the entire family, why would his sister’s
family have had a policy but not my father? However,
when I filed my claim, after all the fanfare, the
Commission (ICHEIC) informed me that his name was
not on any of the lists. This is difficult for me to accept,
but since it is well-known that the lists produced by
Generali and the other insurance companies were
incomplete, I wonder why the U.S. government has
neither demanded a full accounting, nor allowed the
states to require it.
My experience is similar to that of my late friend Si
Frumkin, a survivor and giant in the history of human
rights. Si was speaking for all survivors when he
exposed the hypocrisy and disrespect that Congress,
arrogant Jewish groups, and the Executive Branch of
our government have shown in allowing the insurers

58a
to inherit the funds that should have been paid to
victims’ families decades ago. He wrote:
I am angry. Angry with the SOBs in Germany.
With our own SOBs in Washington. With the
SOBs running the Jewish organizations that
presume to speak and negotiate for me and
others like me. With the criminals who run
European insurance companies that stole
hundreds of millions of dollars from people
who died prematurely in gas chambers, and
then hired stooges to make sure it’s not given
back.
I am a law-abiding American citizen. I pay my
taxes and my traffic tickets. I vote. I have
served on a jury. I fly my flag on national
holidays.
In return, I expect my government to fulfill its
constitutional obligations to me. One of them
is my right to a trial by a jury of my peers.
This has been denied me because, apparently,
my government prefers to defend and uphold
the rights of giant German corporations.
* * *
So far, Generali has been able to keep the
money it stole. It, too, has the cooperation of
the U.S. government and its judiciary in
acknowledging ICHEIC—created, financed,
and controlled by the insurance SOBs—as the
only legitimate body to rule, decide, and
control Holocaust-era insurance claims.
Still, I want to see those lists. I am sure that
my father’s name appears on one of them. I
am also sure that tens of thousands of other

59a
Jews whose parents or grandparents perished
will find the names of their relatives.
Hitler took away my father’s name and gave
him a number. The insurance companies took
it away again by pretending that he never
existed. I want them to acknowledge that he
lived, that he died, and that the way he died
matters to his son and to the grandchildren
he never knew.
Si Frumkin, “Why Don’t Those SOB’s Give Me My
Money,” Reform Judaism Magazine, Spring 2008,
http://reformjudaismmag.org/Articles/index.cfm?id=1315.
We survivors have been stymied with an unremitting series of distortions, rationalizations, and outright
lies and misstatements by the opponents of S. 466 and
its House counterpart, HR 890. Regrettably, these
have been disseminated by institutions survivors once
respected, including the American government and socalled Jewish “defense” organizations.
The most blatant falsehood repeated by our adversaries is that this legislation would undermine
promises the U.S. government made to insurance
companies that if they participated in ICHEIC they
would never be subjected to litigation in U.S. courts.
This is not true, and survivors know it, and we deeply
resent the “big lie” campaign of the State Department,
the Justice Department, the insurance companies,
and the non-survivor groups like the Anti Defamation
League, the American Jewish Committee, B’nai B’rith,
the Claims Conference, and the World Jewish Congress,
Stuart Eizenstat (in his conflicting roles as a Claims
Conference official and State Department special
advisor) and others who have profited and benefited
from ICHEIC.

60a
But what these groups are not, and what Eizenstat
is not, are representatives of, nor advocates for
Holocaust survivors. They are the defenders of a
status quo that has stripped Holocaust survivors of
our rights, of our dignity, and of our family legacies.
They have presided over a restitution enterprise that
has allowed insurance companies to retain 97% of the
money they owe to Jewish families, conservatively
estimated at over $20 billion, and that has allowed
half of all Holocaust survivors in this country to live in
or near poverty, without the resources for the health
and dignity we deserve. These groups and individuals
have no standing to interfere with or oppose what
Holocaust survivors want for ourselves, and they
certainly should not be allowed to propagate lies in the
service of this corrupt status quo.
This statement will address some of the falsehoods and misconceptions being disseminated by the
insurance companies and their supporters in the
Administration and among a small number of
non-Holocaust survivor Jewish organizations. It
encompasses the consensus view of the Executive
Committee of the Holocaust Survivors Foundation
USA (HSF), on which I serve. I have also attached
certain exhibits which I wish to have included in the
Hearing Record. More information can be found at the
HSF website, www.hsf-usa.org.
ICHEIC History
The International Commission for Holocaust Era
Insurance Claims (ICHEIC) was the creation of the
insurance industry, not state regulators as the legislation opponents contend. The companies instigated
ICHEIC because of state laws passed after several
insurance regulators held hearings that yielded damning evidence that the insurers had denied Holocaust

61a
victims’ insurance claims with outrageous demands
such as requiring death certificates or original
policies. These statutes required the companies to
disclose their customer names, and to give survivors
and heirs a 10-year period of time to bring cases in
state courts without regard to statutes of limitations.
According to Federal Judge Michael Mukasey:
“ICHEIC is entirely a creature of the six founding
insurance companies that formed the Commission, it
is in a sense the company store . . . . The concern that
defendants could use their financial leverage to influence the ICHEIC process is not merely theoretical . . . .
ICHEIC’s decision-making processes are and can be
controlled by the defendants in this case.”
When ICHEIC began in 1998, it was set up to
exclude survivors and heirs, i.e. actual claimants and
their chosen representatives, from the decision making process. The insurers had full membership, but we,
the victims whose families were cheated, had no seat
at the table. This remained the case throughout
ICHEIC’s nine tumultuous years of existence.
There were three “Jewish” entities on ICHEIC —
the Claims Conference, the World Jewish Restitution
Organization, and the State of Israel. The American
Jewish Committee was an “observer.” However, these
are not survivor groups and they have no moral or
legal authority to negotiate for those of us whose
families purchased insurance.
It is true that several state insurance regulators
joined ICHEIC. They supported a process to help
resolve claims on a voluntary basis – if the claimant
was satisfied with what was offered. Many individuals
did accept ICHIEC offers despite the lower-thaneconomic values that were agreed to by the

62a
Commission. That was the people’s choices and I
would not criticize any survivor, especially one who
was elderly and in need of the funds, for making that
decision.
But the insurance regulators and others on ICHEIC
always understood that participating claimants
retained their customary rights under State law if
they were not satisfied with the process. Among these
was Florida Insurance Commissioner – now U.S.
Senator – Bill Nelson, who spelled out his condition
that state laws remained in place, and California
Insurance Commissioner John Garamendi, who fought
the insurers all the way to the U.S. Supreme Court to
uphold the California laws protecting survivors’ rights.
Available ICHEIC materials confirm that everyone
understood that a company would not, solely by virtue
of participation on ICHEIC, be immune from lawsuits.
The ICHEIC minutes indicate that phrases like
“exclusive remedy” and “safe haven” meant that if a
company paid a claimant through ICHEIC, it should
not be vulnerable to a possible double payment if the
claimant who accepted an offer later brought an action
in court. However, the proposal that the claimant
would sign a declaration that he or she was entering
into an exclusive remedy at the beginning of the claims
process was rejected:
Mr. Levin [the New York State Superintendent of Insurance] said that it had never
been intended that, once a claimant had
entered the process, he would have to forego
any other available remedy . . . . Mr. Levin
does not believe that the companies have bad
intent, but he feels their view is a distortion
of what was intended by the individuals who
were involved in the creation of the MOU. Mr.

63a
Pomeroy, as the chairman of the task forced
that worked on the MOU, concurred with this
view.
Minutes of the Meeting of International Commission
on Holocaust Era Insurance Claims Thistle Mount
Royal Hotel, March 2-3, 1999, at 9-10 (emphasis
supplied).
Unfortunately, due to the court decisions that relied
on the government’s misleading submissions, the
original premise that ICHEIC was voluntary has been
perverted and we have now been stripped of our legal
rights. Today, Senator Nelson, one of the original
ICHEIC insurance commissioner-members, is a prime
sponsor of S. 466, and Congressman Garamendi has
co-sponsored and testified twice to support the House
counterpart, HR 890.
ICHEIC Was Not A Fair Forum For Holocaust
Survivors and Heirs
Given ICHEIC’s history, its defenders’ current plea
that the process deserves so much deference that it be
allowed to supplant Holocaust survivors’ constitutional rights is outrageous. Not only were there a
number of Congressional hearings between 2000 and
2003 describing the failures of the ICHEIC process,
but it operated in secret and consistently refused to
comply with Congressional mandates to disclose information about its claims processes, and paid less than
3% of the amount owed to Holocaust victims. Yet today
people claiming good faith say this deeply flawed
process should be regarded as a substitute for all
Holocaust survivors’ legal rights. For shame.

64a
ICHEIC Operated In Secret, Avoided Congressional
Reporting Requirements, and Destroyed and Sealed
Records When It Closed.
ICHEIC was chartered under Swiss law and headquartered in London to avoid American public record
laws and court subpoenas. It was funded by the
insurance companies, its meetings were conducted in
secret, and minutes were not even published.
The overwhelming majority of survivors were
frustrated and insulted by their ICHEIC experiences.
This was conveyed to Congress in a series of hearings
between 2000 and 2003. The survivors related their
frustration and anger over ICHEIC’s multi-year
waits for responses, denials without any explanation,
demands for information that no claimant could be
expected to know (such as the birthdates or death
certificates of relatives who perished in the Holocaust),
and denials of claims even where policies were proven
to have existed (Generali’s “Negative Evidence Rule”).
In its first five years, ICHEIC spent more money
on administrative expenses than it paid in claims.
Chairman Lawrence Eagleburger told a Congressional
Committee that ICHEIC’s internal processes were
“none of its [Congress’s] business.”
ICHEIC’s publication of names was late and
incomplete. The German insurers like Allianz waited
five years before publishing names, and even then
they did not identify the specific company that sold a
particular policy. Generali also took five years to
publish what amounted to a fraction of its policy
holder names. It also refused to publish names from
over 80 subsidiaries and affiliates. Germany’s list of
published names came from a database with only 25%
of the relevant policies from Germany, and only 20%

65a
of all Eastern European Jewish policy holder names
were published.
In 2004, after the claims deadline had passed, the
Washington State Insurance Commissioner wrote: `By
failing and/or refusing to provide potential claimants
with the information they often needed to file initial
claims, the companies succeeded in limiting the number of claims and their resultant potential liability.”
Relaxed Standards of Proof
Among the most often repeated yet never
substantiated arguments made by our adversaries in
the State Department and the ADL, AJC, B’nai B’rith,
World Jewish Congress, and the Claims Conference is
that ICHEIC applied “relaxed standards of proof,” i.e.
standards that were more favorable than the courts
would apply. This is simply not accurate. There is no
evidence that ICHEIC companies made offers of
payment in the absence of documentary proof of a
policy.
For example, Generali was allowed – without
proof – to deny claims on policies it admittedly sold
by saying the policies were paid or lapsed before 1936.
This was called the “negative evidence” rule. ICHEIC
placed the burden on survivors to disprove Generali’s
argument – which needless to say was impossible
without the documentation the companies should
have. Of course, the companies have always had
control of all their records and reinsurance records.
According to the New York Legal Assistance Group:
“ICHEIC’s decision to allow the use of negative evidence belies the claim . . . that the organization’s
principal purpose was to find claimants and pay
them.” Yisroel Schulman, “Holocaust Era Claims:

66a
Mission Not Accomplished,” The New York Jewish
Week, May 4, 2007.
And, after ICHEIC closed in 2007, former New York
State Insurance Superintendent Albert Lewis, who
served as an ICHEIC appellate arbitrator, disclosed
that he and other arbitrators were pressured by the
ICHEIC hierarchy to rule against survivors even when
they had credible claims, if the survivors could not
produce documentary proof of a policy. This “phantom
rule” was contrary to what ICHEIC rules stated.
Stewart Ain, “Phantom Rule May Have Limited
Holocaust Era Awards to Claimants, The New York
Jewish Week, June 29, 2007.
Given these facts, the legislation opponents have
changed their story, and now equate “relaxed standards” by stating that companies offered payments on
policies where the claimant “did not even know the
name of the issuing company.” This is not the same as
“relaxed standards of proof,” and it was not ICHEIC’s
or the insurers’ idea. The insurers were already obligated by several state laws to publish the names and
enable survivors and heirs to obtain this information
to ascertain whether they might have a claim before
ICHEIC was created. And in the end, ICHEIC served
to allow the insurers to disclose far less than the states
required, reducing the number of claims and allowing
the companies to retain more of their Holocaust
profits. This was one of the great tragedies caused by
the Supreme Court’s decision in the Garamendi case.
It is the tragedy Congress can and must overrule by
enacting S. 466.
In 2003, Congress even passed a law – the Foreign
Affairs Authorization Act -that required the State
Department to collect information on ICHEIC companies’ claims, practices, and results. However, ICHEIC

67a
simply refused to comply with this Congressional
mandate every single year, without any consequence.
When ICHEIC closed in 2007, over the objection of
the California Insurance Commissioner, ICHEIC CEO
Mara Rudman ordered that unspecified documents be
destroyed, and that claim files be sealed for 50 years.
ICHEIC Paid Only 3% of the Outstanding Amounts
Owed By Insurers to Holocaust Victims
When ICHEIC ended in 2007, it had paid fewer than
14,000 of the 800,000 life/annuity/endowment polices
estimated to be owned by European Jews in 1938. The
total paid on policies was $250 million, less than three
percent (3%) of the $18 billion in outstanding values
at the time, according to the estimate of economist
Zabludoff, using a conservative multiplier of the 30year U.S. bond yield. Today the unpaid amount of
Holocaust era insurance policies exceeds $20 billion.
ICHEIC also issued 34,000 checks for $1000 each
which it termed “humanitarian” in nature, but which
survivors considered insulting rejections. Yet ICHEIC
and its supporters today take credit for having “paid
48,000 claims,” an obvious attempt to inflate its
results and give the appearance of success to a process
that badly failed.
You can also imagine our shock when, immediately
after ICHEIC ended, its Chief Executive Officer, Mara
Rudman, became a paid lobbyist for the American
Insurance Association – the umbrella U.S. group
lobbying against the original version of S. 466 that was
introduced by the late Congressman Tom Lantos in
2007. Mr. Lantos, the only Holocaust survivor to
ever serve in Congress, was a dear friend of mine. His
widow, Annette Lantos, as well as his daughters
Katrina and Annette, have remained committed

68a
advocates for the rights of Holocaust survivors. Mrs.
Lantos’s statement is one of the exhibits to this
submission.
The United States Never Promised Insurers
Immunity From Litigation.
We continue to be horrified that the State Department and others maintain that allowing survivors to
sue insurance companies in court would violate
promises of immunity previously by our government,
or “disturb solemn commitments made by the U.S.
government in bilateral agreements.”
The U.S. government never promised insurance
companies immunity from litigation for participating
in ICHEIC. The U.S.-German executive agreement
itself provides: “The United States does not suggest
that its policy interests concerning the Foundation in
themselves provide an independent legal basis for
dismissal.”
The Clinton Administration filed court papers
immediately after the U.S.-German executive agreement which reiterated that the Agreement “does not
preclude individuals from filing suit on their
insurance policies in court” and does not “mandate
that individual policyholders or beneficiaries bring
their claims in ICHEIC.”
In the aftermath of the agreements, the Clinton
Department of Justice assured concerned members of
Congress in 1999 and 2000 that “the [position of]
the United States . . . does not suggest that private
claimants who wish to pursue suits against German
companies are foreclosed from doing so.”
Even Mr. Eizenstat himself, before he joined the
Claims Conference, wrote “Insurance policies were not

69a
honored ... why should their victims not have the same
right to sue for justice as victims of other and lesser
catastrophes?” He also conceded in his 2003 book that
the U.S. government never promised the insurers
immunity in exchange for joining ICHEIC, noting that
while German companies “insisted on a definitive
commitment by the United States to support some
legal ground for the dismissal of future suits,”
President Clinton refused: “The Germans and their
lawyers knew full well from months of explanations
that we would not take a formal legal position barring
U.S. citizens from their own courts.”
In a New York Jewish Week article in June 2011,
Claims Conference Chairman Julius Berman admitted that the U.S. government never promised the
insurers immunity based on ICHEIC. Berman said:
“there was no commitment that they would have
[legal] peace if they participated [in ICHEIC], but
there was a representation that we – the Jews – would
not make a deal for ICHEIC and then go to Congress
and suggest that we could still arrange for lawsuits
against them.” Needless to say, neither Mr. Berman
nor the Claims Conference nor any such organization
has the authority to make such a promise on our
behalf, nor to presume to bind Holocaust survivors and
our families.
The fact that the insurers now have immunity is a
result of misrepresentations the Department of Justice
made to the courts, as we have seen in the records
produced under the Freedom of Information Act and
reported by the Miami Herald and the Center for
Public Integrity. Despite the government lawyers’
awareness that dismissal of survivors’ lawsuits was
inconsistent with the government’s actual commitments, to quote the senior career deputy in the

70a
Solicitor General’s office, the Department “hid the
ball” from the court despite the dire consequences for
survivors.
Holocaust Survivors Must Not Be Relegated To
Second Class Citizenship Or Have Our Rights Limited
To So-Called Voluntary Processes
In October 2007, the House Foreign Affairs
Committee under Chairman Tom Lantos unanimously
passed legislation similar to S. 466 to help survivors
recover their policies. In response, the insurers, the
State Department, the Claims Conference, and Eizenstat
argued a law was unnecessary because the New York
State Holocaust Claims Processing Office (HCPO)
would “continue to” pay claims under ICHEIC’s “liberal”
rules. Although survivors rejected this “voluntary”
ICHEIC model, the House Financial Services Committee
acquiesced to the insurers’ position and gutted Chairman Lantos’s bill. However, according to its published
reports, in over 4 years the New York State Holocaust
Claims Processing Office has succeeded in helping
recover a grand total of 6 policies, worth only $70,000.
That’s $70 thousand out of the $20 billion remaining
unpaid.
HCPO’s miniscule success rate is no surprise. It
lacks subpoena power, exercises no compulsory authority over the insurers, and accepts all of ICHEIC’s
previous compromises and practices that yielded such
poor results. This is how the New York Jewish Week
described the HCPO in a recent article (December
2011): “Just one month after the U.S. State Department and several major Jewish organizations told
a congressional committee that New York State’s
Holocaust Claims Processing Office (HCPO) could be
relied upon to handle all Holocaust-era insurance
claims, New York State has admitted the system

71a
doesn’t always work.” This article is one of my
exhibits.
ICHEIC, despite the good intentions of some, was
deficient in many respects. However, even if it were
more “successful,” S. 466 would still be necessary.
Whether the number of unpaid policies is 100,000,
10,000, or only one, there is no moral justification to
strip Holocaust survivors of our legal rights — none.
We deserve and demand the same rights as other
Americans.
It Is Immoral To Argue Survivors Should Be Denied
Equal Rights To Induce
Germany To Provide
Assistance For Indigent Survivors.
Perhaps the most appalling argument against us
is that passage of insurance legislation will harm
negotiations over “outstanding Holocaust issues”
because it would call into question the U.S. government’s ability to keep its commitments. Of course, the
United States never promised the insurers that they
would be immune from civil litigation in U.S. courts as
outlined above.
The shameful misrepresentations the Executive
branch, insurers’ lobbyists, and non-survivor Jewish
groups have made about past U.S. government agreements and policy are nothing short of contemptible.
They are an insult to Holocaust survivors and the
memories of our murdered loved ones. Compounding
the shamefulness of these tactics, we also know that
Congress is being told that if it enacts HR 890 and S.
466, the German government will reduce assistance
for indigent Holocaust survivors. This is also false as
a matter of fact – the German Ambassador himself has
denied any such linkage many times, even in writing.

72a
However, it is unacceptable as a matter of principle
to say Holocaust survivors should have to give up
our legal rights to enforce private contracts breached
by Generali, Allianz, AXA, et al., to induce Germany
to provide funding for the needs of impoverished
survivors!
Germany perpetrated the worst crime in human
history and for that country or anyone serving as its
mouthpiece to suggest that it will intentionally inflict
any kind of suffering on impoverished Holocaust survivors in their final years is beyond the pale. Have they
forgotten that after World War II, German Chancellor
Adenauer promised that Germany would provide a
dignified level of care and support for all Holocaust
survivors throughout their lives?
The data clearly show that Germany has failed to
live up to this ideal. In the United States, half of all
survivors – more than 50,000 – either live below the
poverty line (25%) or have incomes so low they are
considered “poor” given the cost of living in their
communities. In my hometown of Los Angeles, 39% of
all Holocaust survivors live below the poverty line.
Tens of thousands of survivors in this country cannot
meet basic home and health care needs, or pay for
medicines, dentures, eyeglasses, hearing aids, or
walkers, or receive transportation to the doctor.
We survivors, and our children, are dealing with
these tragedies day in and day out, and the governmental and philanthropic establishments have been
sadly protective of status quo organizations and
corporations, rather than protective of survivors’
rights, interests, and needs.
Under the scheme Germany and the Claims Conference have engineered for the past 15 years, half of all

73a
survivors in this country have been allowed to slip
into or near poverty, while the insurers alone have
absconded with some $20 billion. The industry’s selfserving position, inexplicably endorsed by the State
Department, would excuse the destruction of Holocaust
survivors’ legal rights to enforce private contracts, and
it should be obvious to all that these contracts have
nothing to do with Germany’s failed obligation to
assist survivors in need.1
The fact that Germany has in recent years, under
intense pressure from the Holocaust Survivors
Foundation USA, begun to provide higher but not
nearly sufficient levels of home care funding for
survivors – more than a sixty years after Chancellor
Adenauer’s promise – does not justify allowing Allianz,
Generali, AXA, and other global insurers to avoid their
legal debts.
This condescension must stop once and for all.
Neither the State Department, the ADL, AJC, Claims
Conference, B’nai B’rith, World Jewish Congress,
nor even Mr. Eizenstat has the right to patronize us
by pontificating about what is and isn’t right for
Holocaust survivors. These insurance policies were
sold to our families and we have every right to decide
for ourselves how to enforce our contractual rights. We
survived in spite of the abandonment of European
Jews by the State Department and the so-called Jewish
“defense” organizations supporting the insurance companies. Many survivors even served in the U.S.
military after moving here and in the Korean and
Vietnam Wars. It is long past time for Congress finally
1

For more on this issue, please see my statement to the House
Foreign Affairs Committee, November 16, 2011, pages 5-10,
http://foreignaffairs.house.gov/112/fir111611.pdf.

74a
to pass legislation to restore our basic rights as
American citizens, and for President Obama to sign
the measure into law. Mister Chairman, thank you for
allowing me to testify, and to include the attached
exhibits in the Hearing Record.

75a
APPENDIX E
STATEMENT OF DAVID SCHAECTER
U.S. HOUSE OF REPRESENTATIVES
COMMITTEE ON FOREIGN AFFAIRS
Righting the Enduring Wrongs of the
Holocaust: Insurance Accountability and
Rail Justice
November 16, 2011
Madame Chairman, and Members of the Committee, my name is David Schaecter. I am the President
of the Holocaust Survivors Foundation USA, a
national coalition of survivor leaders and survivor
groups. Thank you for providing Holocaust survivors
the opportunity to address this Congress. It is a great
honor.
Today I am addressing you not only on behalf of the
Foundation, but for Herbert Karliner, a dear friend
and fellow survivor who was scheduled to testify. He
had a harsh fall and suffered several injuries a few
days ago. We believe he will be OK, but at the age of
85, he could not take any chances to undergo the travel
and pressure of speaking before Congress. So, it falls
on me as a close friend of Herbie, and as President of
the Foundation, to read his spoken testimony to this
Committee. I will conclude with some personal
remarks.
Herbie Karliner Story
Herbie Karliner now lives in Miami, Beach, Florida.
But he remembers Kristallnacht as if it were yesterday. He was a small child that day when he awoke to
the news that his father’s store and most other Jewishowned businesses were set on fire. Within hours, the

76a
Gestapo arrived and took his father, Joseph Karliner,
to Buchenwald. Though his father returned, his family
was fated to sail on the SS St. Louis that was turned
away from the shores of Miami Beach in 1939. After
the St. Louis returned Europe, Herbie’s father,
mother, and two sisters were doomed to death at the
hands of the Nazis. Only Herbie and his brother
Walter survived.
Before he died, Joseph Karliner had told his sons
about a life insurance policy that he bought from
Allianz “in case something happened.” When Herb and
Walter approached Allianz after WWII, the company
said his policy had been paid out to an “unknown person.” When Herb Karliner applied to ICHEIC in 2000,
Allianz said the policy had been paid to the
beneficiary. This closed the case under ICHEIC rules.
Years later, Mr. Karliner managed to obtain the
“repurchase” document. The date was Nov. 9, 1938 –
Kristallnacht. If either Allianz or ICHEIC had given
him the document as they were required to do under
ICHEIC rules, Herb could have informed them that
his father surely did not stop at the Allianz office on
his way to Buchenwald to cash in his life insurance
policy that day.
Herbie moved to the United States in 1949, and
served in the U.S. Army in the Korean War. How
ironic – the country that rejected his whole family in
1939 at such a great cost asked him to serve in 1951,
and he was honored to do so. Yet, as his statement for
the record makes clear, we cannot comprehend how
the American courts, and the President and Congress,
have decided that Herbie Karliner, and all of us survivors, unlike all other Americans, cannot sue Allianz in
court to recover what they owe for his father’s policies.
We are second class citizens under the American legal

77a
system. How can any member of Congress stand by
and accept this historical and moral injustice?
David Schaecter Comments
I would like to add a few words of my own to Herb
Karliner’s powerful story. For over 45 years, I have
been active in the Jewish community, from the Jewish
Federation, to AIPAC, and all the other groups you can
imagine. I led dozens of missions to Israel and the
death camps of Europe. I was one of seven local leaders
who came together to privately fund and build a
magnificent Holocaust Memorial on Miami Beach,
which is visited by tens of thousands of school children
and adult tourists alike. Like hundreds of other
survivors in South Florida, including Herbie, and
thousands around the United States, like Renee
Firestone, I have also spent countless hours speaking
to students in grade schools and colleges and community events to ensure that no one forgets what befell
our people in the Holocaust.
No one can ever repay us for the murder and
destruction of the Holocaust. However, the Nazis and
their collaborators also perpetrated a massive theft of
the European Jewish people’s property and assets.
They even used some of the looted assets forcefully
taken from our people to finance the war effort, and
transport us to the hells of Auschwitz-Birkenau. Yet,
companies that profited from the Holocaust such as
Allianz, Generali, and the others have never been held
accountable. We have been robbed of our family histories and legacies, and the world needs to know these
companies are inflated and tainted by Holocaust profits. As economist Sidney Zabludoff has stated to Congress, these unpaid Holocaust insurance debts exceed
$20 billion in 2011 dollars.

78a
Today we face the challenge of all of us survivors
getting older. Many are poor and frail. Even though
the post-war German government promised to care for
all Holocaust survivors, the programs have never been
adequate to provide for our destitute and aging brothers and sisters. It pains me to say that half of the survivors in the United States live below or near the poverty line, and cannot afford the home care, dental care,
medicines, eyeglasses, wheelchairs, and even food they
need. Survivors are in crisis, not only in South Florida,
but in Los Angeles, New York, Chicago, Boston, Las
Vegas, and throughout the United States, as well as in
Israel, Europe, Canada, Australia, and South
America.
It is an outrage that the insurance companies have
failed to pay over $20 billion they owe to Holocaust victims, while so many survivors are living in misery,
dying before their time. Instead of paying the victims
and families what they owe, these companies are
spending millions upon millions of dollars on
Washington lobbyists, on sports events, and on
Sunday talk shows, to sanitize their reputations.
Allianz is a perfect example. It has not denied its
close relationship to the Nazi regime. In 1933, Allianz
chairman Kurt Schmitt,an early Nazi party member,
became Hitler’s Minister of Economics. Allianz provided the Reich with insurance coverage for Auschwitz
and other death camps. At the same time, it was selling policies to European Jews and handing over
Jewish customers’ files to the Nazis. After World War
II, SS officers and other party members who used to
work for Allianz went right back to their same jobs.
Then in the 65 years after the war, Allianz failed to
honor over $2 billion in policies it had sold to Jewish
customers.

79a
ICHEIC was a grand slam for Allianz – it paid less
than $30 million to claimants compared to the $2 billion it owed.
Amazingly, though, soon after ICHEIC closed in
2007, Allianz offered to pay $300 million for naming
rights to the new New York Giants and Jets in the
Meadowlands. Thanks to a grass roots outcry from the
community, the deal was cancelled.
However, unlike the good people of New York and
New Jersey, others have been very willing to take
Allianz’s money, including CNBC, National Public
Radio, American Public Media, the American Jewish
Committee, and – believe it or not – Garrison Keillor
and A Prairie Home Companion. Are these institutions really so blind to decency that they would accept
this blood money so Allianz can sanitize its history?
Maybe this hearing will send a message. Maybe
now, when our fellow Americans hear Allianz’s ad on
the Marketplace Morning Report on National Public
Radio, or A Prairie Home Companion on Saturdays,
they too will demand an end to this shameful behavior.
However, Congress can no longer plead ignorance.
This history is well-documented. Today, Herbie
Karliner and Renee Firestone have added their powerful stories and documents to the evidence from past
hearings. Almost 5 years ago, Tom Lantos, the great
human rights champion and the only survivor ever to
serve in Congress, unanimously passed this bill
through this same Committee. Yet, the bill was
hijacked with a long list of evasions. Now, year after
year, the response – from Congress and from
Presidents Bush and Obama – has been to change the
subject. We are told our rights must bow to Foreign
Relations, or to Executive Policy and Power. We are

80a
told that State Department bureaucrats or Jewish
organizations know better than survivors what is best
for us. We have even heard complete lies such as the
argument that our government promised immunity for
insurance companies, a lie exposed by Justice Department records under the Freedom of Information Act.
The latest diversion may be the most insulting of all.
We are now told that if Congress restores our legal
rights, then Germany will cut funding to assist indigent Holocaust survivors. Can you imagine such an
argument being made to deny Hurricane Katrina or
California wildfire victims their full insurance rights?
Why should Holocaust survivors be singled out for
such an insulting argument? Why should Holocaust
survivors should have to give up our legal rights to
recover private insurance policies against Generali
and Allianz, so that Germany will provide funding for
the needs of impoverished Holocaust survivors? One
thing has nothing to do with the other. Insurance
companies should pay their debts and we should be
able to sue them if they breach their contracts. This
has nothing to do with Germany’s long overdue moral
obligation to provide adequate funding for the needs of
survivors, a duty it has ignored and only recently
began to address due to pressure from the survivor
community and our allies here in Congress.
Time is running out. This is a deadly serious matter.
Thousands of Holocaust survivors have died in these
past several years, waiting for this Congress to restore
our rights. Five years ago, Herbie could have probably
bounced back from this fall in time to come here and
plead his case by himself, but not now. Five years ago,
Mrs. Firestone might have been able to fly here without needing her daughter to accompany her. Thankfully, she and Herbie have the courage to persevere

81a
and make sure their voices are heard. We urge this
Committee and Congress to do the right thing, and to
pass HR 890 without further delay.
I ask that the attached exhibits be included with my
statement for the hearing record.

82a
APPENDIX F
STATEMENT OF HERBERT KARLINER
U.S. HOUSE OF REPRESENTATIVES
COMMITTEE
ON FOREIGN AFFAIRS
Righting the Enduring Wrongs of the
Holocaust: Insurance Accountability and
Rail Justice
November 16, 2011
My name is Herbert Karliner. I was a child in 1939
when my family, and hundreds of other Jews on the
SS St. Louis trying to escape Hitler were turned away
by this great country. When we returned to Europe,
my mother, my father, and my two sister and hundreds of others were killed. Needless to say, this tragedy has affected my entire life.
Last month, I participated in a Georgetown University symposium held to honor the memory of the St.
Louis victims, and to examine in depth the perfidy of
American officials who allowed hundreds of Jews to be
rejected by the greatest democracy in world history
and sent back to Hitler’s maniacal Europe as a symbol
of the world’s indifference toward Jewish lives. During
that seminar, I believed it was imperative, as I do now
on the anniversary of Kristallnacht, to speak about
today’s terrible hypocrisy in official Washington and in
some Jewish organizational circles toward the rights
and interests of Holocaust survivors. Despite all of the
talk about honoring the memory of the Holocaust, we
survivors are second class citizens under American
law, and thousands of impoverished survivors here
and the world over have been allowed to suffer in pain
and loneliness in the midst of such abundance, and

83a
within earshot of speech after speech and ceremony
after ceremony intoning “Never Again.”
During those tumultuous days, my father Joseph
Karliner told my brother and me about an Allianz life
insurance policy that he bought to provide for us if
something happened, and even gave us the number.
When we approached Allianz after the war, they said
his policy had been paid out to an “unknown person.”
When the International Commission for Holocaust
Era Insurance Claims (ICHEIC) was created in 1998,
my brother and I applied. Like many survivors and
family members, we wanted to believe the process was
worth trying. However, like most survivors and family
members, we were bitterly disappointed by a process
that seemed rigged against us. Allianz admitted it sold
insurance to my father, but it refused to pay saying the
funds had been “paid out to the policy holder.” We
doubted this was true, but neither Allianz nor ICHEIC
provided us with any documents, so there was no way
for us to challenge this decision under ICHEIC rules.
I recently obtained papers from the German consulate showing that the “repurchase” document was supposedly signed by my father on November 9, 1938 –
Kristallnacht. If Allianz or ICHEIC gave me this document at the time I applied, I would have pointed out
that on that day, my father’s store was burned down
and he was taken from our home to Buchenwald.
Though I was a small child, this is something you
never forget.
I seriously doubt that my father stopped by the Allianz office on his way to Buchenwald to cash in his life
insurance policy. But since I am not allowed to go to
the American courts to recover my property, Allianz

84a
will have “inherited” the proceeds of my father’s insurance policy – worth more than $180,000 today.
There was another ridiculous ICHEIC practice that
caused great harm to claimants. The ICHEIC web site
posted the names of several men and women whom I
knew to be my relatives, because I was familiar with
their names and their hometowns, and I inquired
about their policies as well. Allianz admitted that several of the named individuals had indeed purchased
Allianz policies, but it refused to give me any information unless I could provide their dates of birth. This
was impossible, because I was a 9 years old when
WWII began, and I had no conceivable way of knowing
the birthdates of adult relatives who died in the
Holocaust. But Allianz was fully within its rights
under ICHEIC rules to simply deny us this information about insured relatives for whom my brother
and I were the likely heirs.
So, even when companies followed ICHEIC’s “rules,”
the system was stacked against the survivors, their
family members, the legal heirs.
It is tragic that even in the year 2011, these deceptions have been accepted and perpetuated by our very
own government. Shockingly, the United States government has taken the position that we survivors cannot go to court to sue Allianz and Generali and other
insurance companies who cheated us and our families.
Yet in recent years our Government has fought
against Holocaust survivors in the name of foreign policy and executive power, even misrepresenting past
agreements, and giving the insurance companies like
Allianz and Generali victories worth billions of dollars
(over $20 billion in 2011 dollars).

85a
After I survived the war in hiding in France, I moved
to the United States in 1949. I served in the U.S. Army
in the Korean War. Although this great country
turned me and my family away in 1939, and caused
incredible life-long grief, in 1951 Uncle Sam “wanted
me” and I was honored to serve. However, it is truly
outrageous that today, because I am a Holocaust survivor, I am singled out among all American citizens in
that I cannot take Allianz to court to demand the truth
about my family legacy, and I cannot recover the value
of my father’s policy.
It is equally appalling that non-survivor Jewish
groups like the American Jewish Committee, the
Claims Conference, the Anti Defamation League,
B’nai B’rith, and the World Jewish Congress are also
supporting the insurance companies against us. ADL
and AJC have even taken their money too. We are outraged by any Jewish groups arrogantly interfering
with our rights, especially those who failed to help us
in our extreme time of need. By what tortured logic or
moral principle do such organizations – who are not
authorized by survivors, do not represent survivors,
have never even spoken with survivors, and certainly
are not accountable to survivors – presume to interfere
with our individual constitutional rights as American
citizens? Their arrogance is criminal, and the results
have been devastating.
As we commemorate the 73rd anniversary of
Kristallnacht, the observance was again riddled with
tragic irony. Half of the survivors in this country live
near or below the poverty level, and tens of thousands
died in misery, many before their time, without
adequate health care, dental care, nutrition, shelter,
eyeglasses, medicines, and home care. As a volunteer
for the Jewish Community Services in Miami, I can

86a
certify that far too many survivors are not getting the
help they need to live in dignity. Meanwhile, these
non-survivor groups and our own government have
been protecting the global insurers hoarding billions
they owe survivors.
Our colleagues have suffered incalculable tragedies
and unspeakable crimes, most losing all or most of
their loved ones. To have no understanding or willingness to help in regard to Nazi stolen assets like paid
up insurance contracts which are not given back is
intolerable. Instead of holding Allianz and other companies truly accountable, if you look down the street
in this City, no one seems to care. To the contrary, the
companies are spending millions lobbying Congress to
keep survivors from getting what is owed to us.
Let me remind the Committee just who Allianz was,
and what it is today. It has never denied its intimate
relationship to the Nazi regime. In 1933, Allianz chairman Kurt Schmitt, who was an early Nazi party member, became Hitler’s Minister of Economics. Allianz
provided the Reich with insurance coverage for
Auschwitz and other death camps. During this same
period of time, Allianz and its affiliates were selling
policies to European Jews and handing over Jewish
customers’ files to the Nazis. Allianz escaped serious
prosecution after the war, and its former employees
who served in the SS or the Nazi party went right back
to their old jobs. Between the end of the war and today,
according to economist Sidney Zabludoff, Allianz
failed to honor over $2 billion in policies it had sold to
Jewish customers.
When Allianz tried to cynically sweep this past
under the carpet and pay $300 million to name the
new pro football stadium in the Meadowlands in 2008,
thanks to some outstanding reporting the public

87a
learned about Allianz and demanded the deal be
scratched. Unfortunately, others have not been so
principled. Today, National Public Radio, CNBC, and
American Public Media are taking Allianz’s money,
shamelessly using their respected positions to launder
the company’s past.
You will also be shocked to learn that Garrison
Keillor, and A Prairie Home Companion, are also taking Allianz’s sponsorship money! And, they refuse to
even respond to letters of inquiry from Holocaust survivors and our supporters. When one listener inquired
through the program web site, the response was even
more startling – with the official response insisting
they are not responsible for such program sponsorship
and do not take any responsibilities for broadcasts
sponsored by Allianz.
We pray that this hearing, convened by the Honorable Ileana Ros-Lehtinen, a great champion of Holocaust
survivors’ rights, will bring change at long last. We
pray that Congress will make a commitment to ensuring that we survivors obtain the truth about our
families’ legacies, including a full accounting from all
corporate profiteers, passing HR 890 and its Senate
counterpart S. 466. . And, maybe at long last, all survivors will be afforded the dignity they deserve in their
last years. This will happen only if Congress acts now
to restore our rights and insist that the Holocaust profiteers disgorge everything they stole. This is what
remembrance – and justice – demand.
I would like to add a word about the French Railroad
bill. We support all survivors’ rights to full compensation for Holocaust era wrongs, no matter how many
years have passed, no matter how powerful the culprit
is today. This certainly includes the French Rail legislation. However, for the record, I would like the com-

88a
mittee to know that when the St. Louis was returned
to Europe, we were taken to France. My parents and
sisters were deported by the French Railroad to their
deaths in the camps. Due to my young age, I managed
to survive in hiding in France until the end of World
War II. However, I believe that I and others should be
entitled to pursue justice against the French Railroad
and others who participated in similar atrocities, and
all who profited from the Holocaust like the insurance
companies.
Thank you and please allow me to include several
exhibits into the record with my statement.

89a
APPENDIX G
Testimony of Alex Moskovic
House of Representatives
Committee on Foreign Affairs
Subcommittee on Europe
October 3, 2007
Good Afternoon. My name is Alex Moskovic. At the
age of 14, I was the only one of 41 family members to
survive the Auschwitz-Birkenau and Buchenwald
extermination and concentration camps. I came to this
country in 1947 and after my retirement, I moved to
Florida and volunteered to work on the Advisory
Committee of the Ruth Rales Jewish Family Services
in Boca Raton FL. The growing problems facing survivors as they age, the lack of resources to assist them,
and the overall frustration faced by all survivors,
including me, who attempted to recover their family
assets such as insurance policies, led me to become
active with local survivor groups and the national
Holocaust Survivors Foundation USA.
I am here to speak, as a Holocaust survivor, about
the failure of what is often called the quest for “a measure of justice” for survivors. All agree that no amount
of money can ever compensate us for the crimes of the
Holocaust. But the processes employed over the last
decade have mostly failed. We have been denied access
to the truth about our families and their lives. In
allowing unauthorized negotiators to enter compromises over Swiss bank thefts, insurance thefts, and
property restitution, the notion that “perfect justice is
impossible” has served as a cover for secrecy, and for
allowing governments and global financial institutions
to benefit from the theft of tens of billions of dollars in
the Holocaust. We are asking Congress to help. You

90a
are our last chance for a dignified outcome that
respects survivors’ rights and interests.
I only have time for a few specific remarks here, but
I ask that you read my entire submission and the
attachments which I request be allowed in the record.
Some of these materials are dated, with estimates that
pre-date more sophisticated, current data on the number and poverty levels of survivors in the United
States.
My father had a business in our hometown of
Sobrance, Czechoslovakia. This was an area where
Generali, a Jewish company at the time, was a major
force in the insurance market. The International
Commission for Holocaust Era Insurance Claims, the
ICHEIC, was formed in 1998. I applied and gave all
the information I had, which wasn’t much for a boy
who survived at age 14 with no living relatives. Several months later, my name and the names of several
family members appeared on the ICHEIC website,
indicating that policies had been sold to us before
WWII. Yet I never received any specific response from
ICHEIC. ICHEIC denied my claims without providing
any information whatsoever. I had no choice but to
accept their decision. The fact that 97% of the Jewish
families’ insurance money wasn’t repaid does not surprise me because most survivors who entered ICHEIC
believe it was a fiasco. We need Congress to pass HR
1746 to correct this injustice.
Survivors are angry and hurt that so many billions
remain held by the corporate plunderers of the
Holocaust. Not only is this concealment wrong morally, it is unacceptable when you consider the amount
of poverty and need among survivors today. This
might surprise you if you read statements by Claims
Conference President Israel Singer, that $20 billion

91a
was recovered for Holocaust survivors in the last decade. If this is true, we are all wondering what happened to that money. I will give you one example
because of time, but it is similar to thousands of similar cases all over the U.S. and the world.
Mr.and Mrs. L.( 86 and 79 years old ), Survivors of
Poland, now live in a small condo at Century Village
in Boca Raton FL. Mr. L. is a stroke victim now suffering from dementia and cannot be left alone. Mrs. L.
was Mr. L.s caretaker, however a while ago Mrs. L.
had an emergency and was hospitalized and received
coronary by-pass surgery, valve replacement and
repair of a hole in the heart. Her recovery had complications and she needed to be in extensive rehab.
Though a relative helped with Mr. L at first, she could
not afford to miss more work. The Social Services provided some stop-gap assistance, but due to their experiences as survivors, and the problems of age, the separation was traumatic for both Mr. L and Mrs. L and
it was clear they needed to be together. But the JFS
lacked the funds to allow Mr. L. to join his wife in the
rehab center. Survivors can only receive approximately 8 hours from the Claims Conference and the
community for home care or situations such as this.
I see these kinds of tragic problems all the time. It
is happening more often as the survivor population is
aging and it becomes almost impossible for them to
take care of one another. On the Advisory Committee,
we are forced to turn down requests for medications
and devices such as dentures all the time because
there is not enough funds. Today, Mr. and Mrs. L, and
many thousands of survivors, are simply not be able to
receive assistance they require for a decent level of
health care and human dignity.

92a
At the Ruth Rales JFS, the clients in the past few
years have doubled because of aging and but the allocation of funds have remained the same. How can we
live with such a deplorable situation?
So we don’t know where the $20 billion has gone, but
we know not enough is being used to care for survivors
in need. The major source of money for these programs
is the funds recovered from German properties,
claimed and managed by the Claims Conference. But
the Conference has never published an accounting of
what it did with all these properties, so no one really
knows how much it has available to spend. Ernst and
Young recently wrote that the group’s disclosures were
not proper. We are all waiting for the full story.
In addition, the Conference spends 20% of its annual
discretionary budget for projects unrelated to survivors needs, like education and research. Over half of
these grants go to board members or the Claims
Conference, or their affiliates, raising moral if not
legal questions. This is questionable morally, if not
legally. We survivors believe that money recovered
that belonged to our families should either go to the
actual heirs, or to benefit living survivors who are in
need today.
We are the ones who lost everything, our beloved
parents, brothers, and sisters, as well as everything
we owned. Why should others decide what happens to
our families property like ICHEIC did? Who is the
Claims Conference or anyone else to tell us that the
memories of our murdered loved ones should be honored with various programs while living survivors are
suffering and money is being hoarded and hidden?
Survivors do not understand why public officials and
other organizations that have supported the status
quo do not give us the respect of allowing us to make

93a
these decisions for ourselves, and why they tolerate
this kind of injustice.
I would like to add that there is no reason the
German Government itself should be on the sidelines
in this discussion. Germany remains responsible for
the catastrophe that befell us, and should not be
allowed to sit by as an observer while any Holocaust
survivor today lacks the care, food, and shelter they
need. Shouldn’t survivors receive at least as much as
retired SS officers?
The years left are but few to be required to be concerned with the survivors needs in the world. Time is
running out, the hour glass is emptying, and if not
Here, Where? And if not Now. . . When?
Thank You.

94a
APPENDIX H
September 26 Hearing Transcript
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
————
Case No. 01-1859-CV-PAS
————
IRVING and ANA ROSNER, et al.
v.
U.S.A.
————
MIAMI, FLORIDA
September 26, 2005
VOLUME I
PAGE 1 TO 167
————
FAIRNESS HEARING
BEFORE THE HON. PATRICIA A. SEITZ, 3.
UNITED STATES DISTRICT JUDGE
————
APPEARANCES:
FOR THE PLAINTIFFS:
SAMUEL J. DUBBIN, ESQ.
JEFFREY L. KRAVETZ, ESQ.
Dubbin & Kravetz, P.A.
Commercebank Center
220 Alhambra Circle - Fourth Floor
Coral Gables, FL 33134
JONATHAN W. CUNEO, ESQ.
DAVID W. STANLEY, ESQ.

95a
Cuneo Waldman & Gilbert, LLP
Rockefeller Center
620 Fifth Avenue
New York, NY 10020
R. BRENT WALTON, ESQ.
Hagens Berman Sobol Shapiro LLP
1301 Fifth Avenue - Suite 2900
Seattle, WA 98101
REPORTED BY: DAVID S. EHRLICH, RPR
official Court Reporter
301 N. Miami, Room 504
Miami, Florida 33128-7788
(305) 523-5537
Proceedings recorded by mechanical stenography,
transcript produced by computer-aided transcription
(CAT).
APPEARANCES: (Continued)
COUNSEL FOR DEFENDANTS:
DANIEL MERON, ESQ.
* * *
[47] speak that we can hear and then we’ll take our
break?
MR. DUBBIN: Several of the survivors of our class
members had spoken in March did want to speak. But
maybe this is a good time for a break anyway. I know
it has been a long time. But I will leave that to the
Court.
THE COURT: we’ll take a ten-minute break and
then we’ll come back here.

96a
In the meantime, hopefully we’ll have copies of what
Miss Schwarz’s father has provided and you all can
read it through.
(Court recessed at 11:57 a.m.)
(Court reconvened at 12:12 p.m.)
THE COURT: I would like to proceed in the following fashion. I usually break for lunch at 1. And I would
like to be able to move forward using the 50 minutes
that we have, and then we’ll break for lunch. Hopefully
everyone else’s stomach is not rumbling too much.
Is there any other objector that wants to speak?
MR. DUBBIN: There are four class members who
would like to speak in support of the settlement.
THE COURT: okay.
MR. DUBBIN: Mr. Rubin, Mr. Moskovi, Mr. Rosner,
and Mr. Mermelstein who I think is still outside.
THE COURT: And just so the United States and
class counsel are aware, once I hear from the four
plaintiff’s class representatives, I would like to have
your input in dealing with Professor Neuborne.
(off-the-record discussion.)
MR. RUBIN: Good afternoon, Your Honor. I think it
is afternoon. Yes.
[48] My name is Jack Rubin. I was here in March,
Your Honor. As you remember, I gave a very short bitter speech as a 15-years-old as I was collecting all the
valuables when I was in the ghetto.
I have attended several of the hearings. Thank you
for letting me speak again this morning.

97a
This case has been remarkable in several ways.
First, Mr. Rosner and our families had the opportunity
to seek justice against the United States government
in this court of law under the government’s very own
laws, and to receive a fair hearing in that process.
I have watched Your Honor preside over these hearings and although we didn’t always agree with you, we
know you have been just and fair and tried to apply
the law the best way you can.
Second, the survivors have had the opportunity to
participate directly in this litigation. We spoke frequently with the lawyers as the case had its ups and
downs. We sat in this courtroom and witnessed justice
at work. when it came time to negotiate, we had real
input and it was part of the settlement.
We spoke with the Department of Justice, we spoke
with other survivors, we spoke lengthily with the
Claims Conference and with the social service agencies.
The settlement is one that the survivors feel they
had a part in creating. All of the settlements are
important specifying the dollars, the services, requiring strict reporting and auditing, using a fair distribution formula and receiving an apology. This was all
important to us. And the fact that we had the chance
to shape the settlement ourselves along with the survivors from around the world was important and
unique.
[49] Third: After reaching a settlement we had the
chance to speak directly to this Court about it, what it
meant to us. And we had a chance to shake the hands
of the government lawyers and thank the united states
for rescuing civilization in world war II, and providing

98a
many refugees such as ourselves with a home and a
chance for a new life; and
Finally, to thank the government for finally being
accountable for the Gold Train.
My last point, Your Honor, is to emphasize how
important the distribution formula is to the survivors.
Allocating the funds by population was crucial to survivors accepting the settlement. Fair is fair. And there
are Hungarian survivors who need help all over the
world; far too many, unfortunately. They all have a
right to benefit from the settlement. I know this
because I speak with survivors all the time; not only
in Florida, but in Israel, Hungary, and Canada.
The fairness of the allocation formula which was
known to everyone and published in advance was
important to everyone. A different formula would
never be accepted by the majority of the survivors,
Your Honor.
I should add that the claims Conference controls
hundreds of millions of dollars. That is a whole different subject. But if Mr. Sanbar, and Mr. Taylor, the
President of the Claims Conference, would believe
that a particular group of survivors need additional
help, he certainly has the power as Chairman of the
Claims Conference to make that happen. That issue
should not interfere with this settlement.
So we urge you to approve this agreement the way
it was presented in March, Your Honor, without any
further delay. And we thank you again for all your
kindness and your quest for [50] justice.
And may I add, Your Honor, I would personally — it
would personally give me relief and closure after being
involved with this case for the last four years.

99a
Thank you very much, Your Honor.
THE COURT: Mr. Rubin, can you help me on one
point?
MR. RUBIN: Yes, ma’am.
THE COURT: You say that Mr. Taylor couldn’t
make changes? How would he do that?
MR. RUBIN: I would not make any changes. I think
it is a fair distribution as is.
THE COURT: Maybe I misunderstood. You said
that if Mr. Sanbar and Mr. Taylor felt that it was
unfair, that they could make the changes.
MR. RUBIN: What I mean by it — I will reread this
paragraph if you don’t mind, Your Honor.
“I should add that the claims Conference controls
hundreds of millions of dollars. That is a whole different subject. But, if Mr. Sanbar really believes that a
particular group of survivors need additional help, he
certainly has the power as Chairman of the Claims
Conference to make that happen.”
What I mean by it is, if the Hungarian survivors
need more help, we should dig into the money that
they have and help. But this Gold Train settlement
should come to an end.
THE COURT: Okay.
MR. RUBIN: Thank you very much.
THE COURT: Is Mr. Sanbar involved in the Claims
Conference?
MR. RUBIN: Yes. He is the Chairman of the Claims
Conference.
[51] THE COURT: I missed that.

100a
MR. RUBIN: And he has the power to do a lot of good
things. And millions of dollars is laying in the claims
Conference’s hands which belongs to the Holocaust
survivors. Your Honor, in another five to ten years,
there will be no Holocaust survivors.
THE COURT: I am aware of that.
MR. RUBIN: And they are in need today, not tomorrow. I am terribly sorry that the Claims Conference
does not realize this situation, and they make a big
thing about this settlement that our lawyers worked
for it for four years, and they are not satisfied with the
distribution. And if the Hungarian survivors in
Hungary need more money, Mr. Sanbar has the power
to see to it they get more money.
Thank you, Your Honor.
THE COURT: Thank you, Mr. Rubin.
MR. MOSKOVIC: Your Honor, good afternoon. My
name is Alex Moskovic. I spoke in this courtroom last
March when this settlement was up for its first
approval.
I am proud of the effort the survivors have put into
this case, and it has been an honor to observe this
Court preside over what I know has been a difficult
case.
It has been difficult for us too. All this restitution
business has caused survivors a lot of pain because it
required us to relive our past; something that no one
should ever have to experience.
But we did press several cases because justice
requires accountability to the people who were harmed
and to [52] history. That is why we support the settlement. we support it mostly because we believe the

101a
results, as it has been agreed to so far, will be honest
to history and fair to the survivors.
First let me talk about the assistance plan for the
people. we strongly support the current allocation plan
based on where survivors live. The current plan is correct because it recognizes each survivor in need and
has a chance to get help from the settlement. Isn’t that
what restitution is all about, giving people back what
was taken from us?
We believe that if you start cutting amounts due to
certain countries, you will deprive survivors there who
are in need of very important assistance and deny
them their rights.
We know, as our letter said, that there is more than
enough need here, in Israel, Hungary, Canada, and
elsewhere, so that these funds will provide real help
for those who really need it everywhere.
Thankfully most of us here today are not in such
need. But the reason we agreed to the settlement is
because the formula is fair. It is fair because it recognizes the dignity of every survivor who is in need.
We who do not need help are agreeing that those
without life’s necessities should get help. They do not
want charity, and this is not charity. It is justice, Your
Honor. And these two concepts are very different.
When you receive funds from a settlement of your
property claims, it is not charity. This was our property and now it is being returned as a symbolic way
that the overwhelming number of the survivors agreed
with. Please don’t change it.
Another brief word about the history. As I said in
March, I will not have closure here until the government issues a [53] statement of apology or acknowl-

102a
edgment. It is a very important part of the settlement.
I hope the government takes the responsibility in a
way that acknowledges injury felt by the victims.
Officers who stole Hungarian Jewish valuable possessions, then the United states gave the remnants to
the international organization to sell in auctions.
Other than the officers who stole, we realize the united
States itself would not have profited from these sales.
But the injury to the survivors is just as great. maybe
some felt it justified that the property was sold to help
refugees. But the survivors I know feel differently.
They believe the property should have been returned.
Even the organizations, including Jewish organizations who approved these auctions, don’t have the
right to work out deals with the government over how
to dispose of the victims’ property. Thousands of us
would have welcomed our personal items returned to
us for sentimental reasons. The property and the
rights were ours, not anyone else’s.
So we support the settlement because we were
involved. We were consulted. We had a voice. We
agreed to the social services, we agreed to the population-based distribution formula, we insisted on
accounting of expenditures from the settlement fund,
the right to audit program administration, and the
strict limit on administrative expenses.
We approved the archive and will, we hope, be satisfied when the government makes its acknowledgment if you approve the settlement.
And those who are not directly involved had the
right to object or opt out of the settlement. A very
small number chose to opt out.

103a
[54] For all these reasons, Your Honor, we hope you
give it final approval.
I have been involved in this case since its inception.
It has been a very complicated and difficult case. To
tell you the truth, I had doubts of its final approval.
But I’m here today.
I also would like to thank Mr. Fred Fielding for his
assistance.
Again, we, the Hungarian survivors, desperately
need closure on this issue after 60 years.
Again, Your Honor, we thank you for your relenting
work and allowing us to speak today.
THE COURT: Thank you very much, Mr. Moskovic.
MR. DUBBIN: Mr. Rosner said his sentiments were
expressed by others and that he didn’t necessarily
want to speak. But David Mermelstein wants to.
THE COURT: okay, Mr. Rosner. You will go down in
history, Mr. Rosner. This will always be the Rosner
case.
MR. MERMELSTEIN: Good afternoon, Your Honor.
My name is David Mermelstein. It is a pleasure to be
here again. It has been many years already, and I hope
this is the last time.
We fought this case hard on behalf of all the
Hungarian survivors and their families. we fought for
honor and justice. we fought for accountability. we
were always informed about what was happening in
the case, and had a lot of input with our lawyers.
Our lawyers were advocates for the living and for
the memory of the dead. we saw the Justice Department fight hard, but in the end when it came time to
do the right thing they were very honorable.

104a
[55] we agreed to have the Jewish Family Services
benefit instead of a payment for every survivor
because it would have taken too long to fight for a
larger-enough payment for every survivor. Many
would have died before we won, if we won. so this was
the best outcome for everyone.
Our agreement to divide equally by population was
made in good faith and without controversy. It was fair
to everyone. No one objected.
The Israeli and Hungarian groups were involved. So
were their lawyers and the Claims conference. A wellrespected Hungarian Professor was asked to prepare
the population study so no one could complain. That
agreement should be honored because it is fair and we
all agreed it was fair. It is fair because we know that
there is a great deal of need in the united states. Survivors are getting very old. All survivors had a terrible
experience in the camps and ghettos. The physical and
emotional injuries are very real.
Old age is hard enough for people who are poor,
which includes many survivors. Medical and emergency costs are very expensive. Medicare does not
cover all the needs of survivors and many do not even
have Medicare coverage, and we do not have socialized
medicine in the united states.
Receiving assistance from this settlement provides
Hungarian survivors the dignity. It is not charity, but
restitution. Please don’t confuse the two.
Those of us who don’t need help want our fellows in
need to have the dignity of receiving their own money
back to help them with their current health care. This
is why we agreed to the settlement and why we agreed
to the formula.

105a
Frankly, we are very upset about the argument that
[56] Americans will receive too much. This does not
buy very much emergency assistance such as medicine, glasses, food, rent, dental. No, we don’t have heat
in the winter, but we do have air conditioning in the
summer that some people cannot afford the air conditioning and they are suffering through the heat that
we have here.
THE COURT: That is a very good point. Our paradise of the wintertime is the hell of the summertime.
And it is five months long.
MR. MOSKOVIC: And emergency home care. This
is what we cannot give people today in the Jewish
Family Services.
When we see a survivor who is too poor, to help him
or her it breaks our hearts. We hope this Court does
not dignify this argument because it is truly insulting
to us and to our loved ones that died in the Holocaust.
We were abandoned in the 1940’s, and our people
want to see this case as a just conclusion to the Gold
Train history. We must respect the victims first and
foremost.
I find it very sad that there are those that say that
Americans are not as needy as other survivors. How
dare they? After what our people have lived through
and lost, those comments are just plain disrespectful
to those of us that lived through hell. It is disrespectful
to those that died.
These may be strong words, Your Honor, but,
believe me, I could say a lot more, but I won’t, however,
in respect to the Court.
A couple of comments, Your Honor, I would like to
make in answer the gentleman that was worried about

106a
the distribution, the money going there. I explained it
to him that once the Claims [57] conference gives the
money to the Jewish Family Services, and they are in
most of the cities, except New York, there will be no
service charge. Not a penny will be spent on anything
whatsoever. And every county has an advisory committee. We have that now, and we are going to follow
this the same.
THE COURT: You are talking about Mr. Lichtman’s
concerns?
MR. MOSKOVIC: Yes. I explained that to him and
he was very happy to hear that.
THE COURT: Thank you for doing that.
MR. MOSKOVIC: Number two, Your Honor, the
needy. Now, tradition in the Jewish history goes back:
If a Jew stretches out his hand, you don’t ask how
needy you are — going back to when we were poor back
home — but we always put something in that hand.
And the poor in Miami, I could give you three examples. I can give you the name. I can give you the initials. Later on I could. Mr. and Mrs. R, the wife has
been sick for seven or eight years. She is practically on
the death bed now. Just came home from the hospital.
He called me up the other day crying, “what am I going
to do?” He was getting more hours before. Now they
cut it down to six hours a day.
Mrs. S, her husband’s leg was amputated. she has
trouble with her legs, with her heart. “He is home now.
what am I going to do?”
Mrs. K, lives alone. can’t walk a block. Now, when
somebody says a survivor in the United states is not
as needy, I would like to know how they could justify
that.

107a
And, Your Honor, if you heard a little anger in my
voice, I feel bad and I’m hurt when I hear these comments.
[58] Thank you very much.
THE COURT: You are welcome.
MR. MOSKOVIC: And let me just make one more
comment. As far as getting this money, if we divided
to the survivors in Dade County, one person would get
$236 a year.
Thank you again.
THE COURT: Your math and my math is about the
same.
MR. DUBBIN: Mr. Rosner is going to speak.
THE COURT: Thank you, Mr. Rosner. It is only fitting, given the fact that you are the lead plaintiff, that
you do speak. You don’t have to speak long, but it helps
MR. ROSNER: Your Honor, everyone has long
speeches and I wouldn’t want to stretch the time too
long. But I want to congratulate Your Honor for your
patience and everything you have done for us.
I also want to say that the times and times we spent
on this, subject, hours and hours, and then people
come in from the outside complaining they didn’t do
enough, they didn’t get enough, they just can’t accept
it. They feel that everything was done whatever was
possible. And we are very happy with your hard work
for us, and we thank you so much for doing it.
THE COURT: I thank you, Mr. Rosner. But I owe it
to all of the parties on both sides of this courtroom,
because the case was settled, and it would not have
been settled if there had not been a commitment by
both sides to seek to understand where the other side

108a
was coming from and try and address and come up
with a fair impartial resolution. So it is my thanks to
you all because you made my job much easier.
MR. ROSNER: My question is, where were they for
the last 50 years? Why didn’t they bring up the subject
before?
[59] THE COURT: They have a right to speak, and
that is one of the benefits of living in this country is
that we do listen to everyone. We can’t make everyone
happy. My job is to make a decision, but before I can
make a decision I have to make sure that I heard from
everyone so that hopefully with that, and a little
Divine inspiration, I come out to a right decision.
MR. ROSNER: And I agree with that. And that is
why I congratulate you for your patience. Thank you
very much.
THE COURT: Keep me in your prayers.
MR. DUBBIN: That covers the class members who
wanted to speak, Your Honor.
THE COURT: Okay.
I would like to hear from the government and from
class counsel. we are a little out of order because ordinarily we should have gone through the notice program first and put that on the record, and I can do that
very quickly, and then we can come to the whole issue
of the exclusions and then the objections. So we sort of
jumped down and started with D on our agenda. But
that is really the heart of why we are here today.
But if we can, is there anything that you or the government would like to put on the record in addition to
all of the papers that have been filed that have
answered my questions about the notice so that I make
the findings on that?

109a
MR. DUBBIN: Nothing to add on the notice from
class counsel.
THE COURT: Anything from the government?
MR. MERON: I’m sorry. On the question of notice?
THE COURT: Yes, on the question of notice.
MR. MERON: No, Your Honor.
THE COURT: The Court does find, having reviewed
the
* * *

110a
APPENDIX I
Statement of Dr. Tom Weiss
United States House of Representatives
Committee On Banking And
Financial Services
February 12, 1998
————
Mr. Chairman and Member of the Committee:
My name is Dr. Thomas Weiss. I am a practicing
ophthalmologist in Miama Beach, Florida. I am currently Chairman of the Division of Ophthalmology at
the Miami Heart Institute.
I want to thank Chairman Leach and Committee
members and especially Congressman Foley from my
home State of Florida for having this hearing today to
learn about the Holocaust era insurance issues. So
much has been kept under wraps for so many years. I
know I speak for thousands of survivors and family
members of Holocaust victims in thanking the United
States Congress for commencing this inquiry. I also
hope that by sharing my family’s experiences here
today others like me and my parents will ask the
necessary questions about their possible stolen insurance policies before all of the memories are too old to
reconstruct their families’ histories.
I also want to especially thank Commissioner
Deborah Senn of the State of Washington for taking
the lead on this issue and Commissioner Quackenbush
of California, Nelson of Florida, and Levin of New York
for adding their prestige to these inquiries.
I was born in Prague in 1949. My father was 54
years old. He survived Auschwitz at the age of 50,

111a
although his first wife and three children perished
there.. My mother was 42 years old, she had no
children prior to her internment. Her first husband
died in the camps. I found myself in Miami Beach at
the age of 6 months old through the courtesy of HIAS,
which was a relief organization, based in New York,
that aided survivors of the Holocaust who had entry
permits to immigrate to America.
Growing up in Miami Beach was wonderful. I fished,
I scuba dived, we did all the things that Miami and
Florida is famous for. It was only as I started getting
older that I realized there was a huge dark deep secret
that my community, including my parents, were
suffering with, and were unable to talk about. They
were ashamed and depressed and I couldn’t understand why. It became clear that a huge tragedy had
occurred, and that I, and others of my generation, were
heirs to an unspeakable horror. The details that have
now become more public, as in the movie by Spielberg,
Schindler’s List, only speak to the surface of the fear,
of the atrocities, and of the rape of an entire nation.
My father was born in a place called Nodsevlus (now
Vinogrado) in 1895, which was at that time, part of the
Austrian-Hungarian Empire, the Hapsburg Empire.
He was born to a landed gentry family that had large
holdings in real estate and cattle, vineyards, and
agriculture. When my father finished his schooling,
including German schooling, he set up a commodities
business in 1933-35 that had offices in Prague,
Budapest, and in Nodsevlus that sold sunflower oil
and cakes, walnuts, and grains, through the ports of
Bremen, Hamburg, Danzig, and on the Adriatic.
At that time there was an agent in town by the name
of Mr. Joseph Schreiber who constantly pestered my
father to buy insurance. Mr. Schreiber’s business was

112a
located at a desk in the Duna Bank. The Duna Bank
had, on its marquee, the royal lion of the company,
Assicurazioni Generali.. Mr. Schreiber successfully
convinced my father to purchase property, casualty,
fire policies and an annuity. Before the Second World
War, my father was in the privileged position of being
extremely wealthy himself and of marrying a younger
woman who had an unusually large amount of money her dowry. He had much more money than he needed
at that time, and wanted to find a secure place for
some of his family’s wealth. Remember, there was no
such thing as FDIC insurance for banks at the time.
In 1937, Mr. Schreiber induced him to buy an insurance policy with Generali, which was considered a
pillar of financial stability at the time. The policy was
a Czech crown policy that was linked to the American
dollar. My father estimated that at the time the value
of the policy dollar-wise was in excess of $50,000. Keep
in mind that one crown was able to buy many kilos of
bread, and there were 50 crowns to the dollar. We’re
talking about an unusual sum of money.
I know this Committee has heard many of the tragic
stories of our peoples internment, murder, and financial victimization. My parents’ experience was not
atypical.
The town had been taken over by the Hungarian/
German Army. The Army has a very precise, almost
checklist procedure. Their procedure was to take the
wealthy in town and convince them, by method of
beating on their testicles, that they need to reveal the
location of their assets and how the Jewish residents
were going to transfer this to the Hungarian/Nazi
authorities.
My mother remembers being taken back to her
house about two days after she was in the Ghetto,

113a
because her husband, who was a dentist, had not
properly revealed, after a long series of beatings,
where the gold from his dental practice was. So my
mother revealed it because she wanted to stop the
beatings her husband was receiving. In May of 1944,
my parents and all the Jewish residents of Nodsevlus
and environs were sent to Auschwitz by train.
My father was taken to various work sites.
Auschwitz was ringed by 17 sub-workgroups, including IG Farben and Krupp and they worked as slave
laborers in different locations there. The corporations
paid the Reich for their work. My mother was transferred Oct. 28, 1944, along with her two sisters and
other Czech women to a work camp Gross-Rosen, in a
town called Zittau situated in S. Germany. She made
speedometer parts for the firm of Messerschmidt, a
subdivision of the Henkel corporation.
My parents were liberated in approximately Spring
of ‘45. My father had typhus in Dachau and was
liberated by Patton’s army. He was nurtured back to
health by the medical corps. When he and other people
went back to their town, the Jewish houses were
completely filled up with Russian populations that had
been ushered into the area. The Russian populations
that had been moved into the area to create on-theground facts. The Russians then had “a vote” and the
populations voted to secede from Czechoslovakia. To
become part of the Ukraine, which occurred.
Of course, many people had no papers because the
Russian populations had disposed of all the personal
articles that were left by the survivors and had burned
them. For those new residents, there was no reason to
keep paper and photographs of strangers .

114a
As I mentioned before, my father was never very
communicative about his war experiences. Talking
about these kinds of things brought back too much
pain which caused him to cry uncontrollably and it
was only after many years that I was able to understand the story as I’ve outlined it here. In fact he never
mentioned this insurance policy to me until 1984. At
that time, he marveled at how the insurance company
beat him. Since Mr. Schreiber also sold policies to
many other people in this region, and using the name
of Mr. Joseph Schreiber, I wrote the different companies throughout the area, starting in 1984 to see if we
could trace down the policies and the results and
claims thereof.
Generali wrote back and said that Czechoslovakia
had nationalized Generali’s assets and so they weren’t
even going to look for my father’s policy. Further they
stated that no actual insurance policies existed
because they were destroyed during the War or by the
Communists.
Most people in my father’s position were met with
desultory rejections in trying to claim insurance
proceeds, beginning with the fact that they had no
piece of paper, and including many other excuses
which you will I’m sure hear about today.
I urge you to be skeptical of the insurers’ smooth
presentations. Their practice to date is to make
technical but misleading pronouncements and recede
trench by trench only after someone else establishes a
fact they cannot deny. In 1984 they told my father that
there was no policy and no way to find a policy, and
even if there was a policy they had no legal or moral
responsibility. In October of 1996 Generali publicly
denied the existence of certain pre war insurance
records because “documents and details relating to

115a
specific policies were normally kept in the Prague
Branch office”. But in March of 1997, after press
reports of an archive in Italy, they admitted that in
fact there was an archive in Trieste which contained
“a number of documents relating to the insurance
business it carried out in Central-Easter European
countries.”
You will also note that in these early press releases
rejecting responsibility because of the communist
nationalization, Generali never mentioned that it had
received a substantial sum of money from the CzechItalian settlement treaty. Now they admit the treaty
but asset a narrow interpretation which would require
Holocaust victims to look to the Czech government for
payment of these funds. Funds, remember, which the
company itself received but never paid out.
That same March 1997 press release said that
Generali would agree to a procedure for an examination of its records in Trieste “which would enable an
agreed, acceptable body to identify Jewish policy
holders in Central and Eastern Europe.” Later in
1997, Generali published its “Open Letter to the
Families of Holocaust Victims” in major urban newspapers and in several Jewish publications in the
United States. In that letter Generali invited families
of Holocaust victims to send their names to obtain an
archival search of the archive in Trieste (an archvie
they did not admit existed six months earlier). I
submitted such a request in June of 1997, which
Generali acknowledged in writing. But I have received
nothing else since then from Generali.
What is even more disturbing is that Generali is
conducting its records search by itself, with no independent verification whatsoever. This despite their
earlier commitment to an agreed, acceptable body to

116a
identify Jewish policy holders. I understand that to
this day they have also refused voluntarily to allow the
state insurance commissioners to conduct an
independent audit of their records.
In summary, it is important to realize that there
was a huge transfer of wealth from populations in
Europe to these insurance companies. And I think,
Congressmen, that you realize, and you have stepped
forward, because you know in your gut, that the Swiss
bank accounts pale by comparison to the net asset
value of these companies. What needs to happen here,
and what can you do?
The total universe of companies and policies needs
to be identified. The projected payout from that period
needs to be quantified. Archivists, actuaries, insurance regulators, lawyers and researchers need to be
brought into the physical locations of these insurance
companies to supervise the work that needs to be done.
The insurance companies themselves cannot be relied
upon to accurately complete this job. Their slick and
cynical disclosure history I just reviewed prove that
the authority of this Congress, State regulators, and
the American judicial system should be brought to
bear to correct this financial crime against humanity.
In my individual case, this is a matter of preventing
the insurance company from being unjustly enriched
at the expense of my family. For hundreds of thousands of Holocaust survivors whose lives after the war
should have been eased somewhat by the return of the
Jewish people’s assets, this is a matter of ensuring a
measure of human dignity for people whose suffering
cannot be measured.
In conclusion, you are fighting the good fight. This
is nothing less than the remaining vestiges of World

117a
War II. The same way that World War II was the last
good fight that we all agreed on, of good versus pure
evil, I would say to you, do not let these insurance
companies laugh at you by holding on to the trillions
of dollars that they have illegally, unjustly and
immorally enriched themselves with. You have the
ability to do what’s right.
Thank you.

